<html>
<title> - OFFICE OF NATIONAL DRUG CONTROL POLICY: REAUTHORIZATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








        OFFICE OF NATIONAL DRUG CONTROL POLICY: REAUTHORIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2015

                               __________

                           Serial No. 114-87

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-394 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
  Jeff Post, Government Operations Subcommittee Deputy Staff Director
               Alexa Armstrong, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                                 ------                                

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 2, 2015.................................     1

                               WITNESSES

The Hon. Michael Botticelli, Director of National Drug Control 
  Policy, Office of National Drug Control Policy
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. David Kelley, Congressional Liaison, National HIDTA Directors 
  Association
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. David Maurer, Director, Justice and Law Enforcement Issues, 
  U.S. Government Accountability Office
    Oral Statement...............................................    28
    Written Statement............................................    30

                                APPENDIX

RESPONSE from Director Botticelli-ONDCP to Questions for the 
  Record.........................................................    84

 
        OFFICE OF NATIONAL DRUG CONTROL POLICY: REAUTHORIZATION

                              ----------                              


                      Wednesday, December 2, 2015

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Jordan, Walberg, Gowdy, 
Mulvaney, Buck, Carter, Grothman, Connolly, Maloney, Norton, 
Clay, Plaskett, and Lynch.
    Also Present: Representatives Chaffetz, Turner, and 
Cummings.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order. And without objection, the chair is authorized 
to declare a recess at any time.
    The Office of National Drug Control Policy, or the ONDCP, 
is charged with guiding the big picture strategy for addressing 
illicit drug problems here in this country and the consequences 
thereof. I think we can all agree that this is a problem that 
merits meaningful solutions. And over the years, we as a Nation 
have tried a variety of approaches to address the illicit drug 
problem. From its launch in 1988 to the last reauthorization in 
2006, and still today, the ONDCP has been intimately involved 
in the spectrum of drug control efforts.
    Today's hearing will take a look at the ONDCP, particularly 
since its last reauthorization, which expired at the end of 
fiscal year 2010. There are important questions for 
consideration. One, has the ONDCP evolved to match the 
evolution in our Nation's drug control strategies? Two, what is 
the value of this office and is it correctly placed and 
appropriately resourced to fulfill those functions?
    And earlier this year, the agency actually sent a letter to 
Chairman Chaffetz and Ranking Member Cummings and their 
counterparts in the Senate, and the letter included proposed 
language for reauthorization of the ONDCP, and today's hearing 
will focus also and discuss that proposal.
    We will also hear testimony from the Director of National 
Drug Control Policy, Mr. Botticelli, who will speak 
knowledgeably to the work that is being done there as well as 
the proposed authorization language. And as we look at this, 
these proposed changes to the authorization of the High 
Intensity Drug Trafficking Areas program, referred to as the 
HIDTA program, now, the HIDTA program has been a leader in 
bringing together local, State, national, and tribal law 
enforcement entities to reduce the supply of illegal drugs by 
targeting and disrupting drug-trafficking organizations. I 
might note that in that particular area, we are very familiar 
with that with local law enforcement in western North Carolina, 
as we have one of those areas that has that cooperation.
    The ONDCP changes would allow for the use of the HIDTA 
funds for engaging in prevention and treatment efforts. 
Previously, only limited HIDTA funds would be used for 
prevention efforts and no funds were permitted for treatment. 
So in response to this proposal, the National HIDTA Directors 
Association wrote to members of the Oversight Committee 
suggesting a compromise that would allow for the use of funds 
for prevention and treatment, but with a cap. I imagine that 
the congressional liaison for the National HIDTA Directors 
Association, Mr. Kelley, will be able to provide further 
explanation on that letter and the proposed language.
    And so we look forward to hearing from you and all the 
witnesses today. And I would now recognize Mr. Connolly, the 
ranking member of the Subcommittee on Government Operations, 
for his opening statement.
    Mr. Connolly. Thank you, Mr. Meadows. Thank you, Mr. 
Chairman, and thank you for holding this hearing, a very 
important topic.
    The Office of National Drug Control Policy plays a critical 
role in coordinating the Federal response to our troubling drug 
epidemic, in which the annual deaths from drug overdoses now 
outnumber those caused by gunshots or car accidents. The Office 
itself manages a budget of $375 million, with two national 
grant programs, and coordinates the related activities of 39 
Federal departments, agencies, and programs, totaling more than 
$26 billion.
    So it's more than a little concerning that Congress allowed 
the Office's formal authorization to expire 5 years ago, 
allowing it simply to subside on annual appropriations rather 
than a long-term authorization. It's been nearly a decade since 
Congress seriously considered our national drug control 
policies and activities, and as we'll hear from today's panel, 
a great deal has changed in that interim period--sadly, not for 
the better.
    Mr. Kelley of the National HIDTA--High Intensity Drug 
Trafficking Areas program--Directors Association, aptly notes 
in his remarks that the scourge of drug abuse has no 
boundaries, it does not recognize geography, social, economic 
status, race, gender, or age. The efforts of the ONDCP are 
vital to and visible in each of our respective communities. So, 
Mr. Chairman, I appreciate the bipartisan spirit with which 
we've approached this hearing on the ONDCP's performance and 
its proposal for reauthorization.
    I know many of us are troubled, very troubled, by the spike 
in heroin use in our communities. Heroin used to be actually a 
very static demand drug. No longer. In my home State of 
Virginia, for example, the number of people who died using 
heroin or other opiates is on track to climb for the third 
straight year. Heroin-related deaths doubled in my own home 
county of Fairfax, just across the river, between 2013 and 
2014, and that follows a troubling trend all across the 
national capital region. And I know Eleanor Holmes Norton 
shares that concern as well.
    Communities in my district have been fortunate to receive 
assistance from both the High Intensity Drug Trafficking Area 
program, which provides grants to local, State, and tribal law 
enforcement agencies to counter drug trafficking activities, 
and the Drug-Free Communities Program, which provides grants to 
create community partnerships aimed at reducing substance 
abuse, especially among young people. Virginia now has 20 
counties out of 95 that have been designated as High Intensity 
Drug Trafficking Areas. Four are part of the larger Appalachian 
region HIDTA and 16 are part of the Washington-Baltimore area 
HIDTA.
    While the HIDTA program has historically been more 
enforcement focused, we're beginning to see an increased 
emphasis on prevention and treatment, and I think that's 
appropriate. That's reflected in the administration's 
reauthorization proposal.
    Current law caps at 5 percent the amount of funds that can 
be used for prevention activities--5 percent. Twenty-seven of 
the 28 designated regional High Intensity Drug Trafficking 
Areas support prevention activities. The statute actually 
prohibits funds from being used for treatment programs, with 
the exception of two grandfathered programs in the Washington-
Baltimore and Northwest regions, as their efforts predate the 
prohibition in the previous authorization.
    In fact, my district benefits from that particular 
exception, with Fairfax County receiving a subgrant to fund one 
full-time position--one--providing residential day treatment 
and medical detoxification services.
    I think that 5 percent limit does not make sense, 
especially in light of a lot of changes in the demand for 
opiates and other drugs.
    I look forward to hearing more from Director Botticelli 
about the shift to public health-based services within the 
National Drug Control Strategy. The administration's proposed 
reauthorization language would allow the regional drug 
trafficking areas, upon request of their boards, to spend 
funding on treatment efforts and to spend above the current cap 
on prevention efforts. That would amount to a considerable 
investment in strategies such as diversion or alternative 
sentencing and community reentry programs that have proven 
successful here in the national capital region and other 
communities across the country.
    I appreciate, Mr. Kelley, with your law enforcement 
background, acknowledging that we cannot arrest our way out of 
this problem and that we're moving more and more to a 
partnership between public safety and public health to create a 
more holistic approach to the substance abuse challenges facing 
so many communities across America. Director Botticelli's 
compelling personal story speaks to the power of treatment and 
recovery.
    Mr. Chairman, I hope our subcommittee can play a 
constructive role in helping to advance this important 
reauthorization effort, and I very much appreciate the 
bipartisan spirit with which you and our colleagues have 
approached it. I look forward to hearing the testimony this 
morning. Thank you.
    Mr. Meadows. I thank the gentleman.
    The chair now recognizes the gentleman from Maryland, the 
ranking member of the full committee, Mr. Cummings, for his 
opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And as I 
listened to Mr. Connolly, I could not help but be reminded, in 
this day and age we are fully realizing that drug addiction has 
no boundaries--has no boundaries. It affects blacks, whites, 
rich, poor, from one coast to the other of this United States. 
And his statements, that is Mr. Connolly's statements with 
regard to treatment, ladies and gentlemen, some of the most 
profound words that will be spoken here is we better wake up 
and begin to address this more and more as a health problem, 
because, again, what we're seeing now with heroin, I've known 
about heroin for many, many years in Baltimore. But now it's 
spreading everywhere and now people are beginning to understand 
that prevention is so very, very crucial.
    And so the Office of National Drug Control Policy, or 
ONDCP, has a difficult but crucial mission. It is tasked with 
leading efforts across the Federal agencies to reduce drug use 
and mitigate its consequences. ONDCP is also responsible for 
developing and implementing strategies and budgets annually 
while also furthering long-term goals. Although none of these 
responsibilities are simple, I have been impressed with how 
diligently this administration has tackled these tasks while 
being efficient with the resources that are provided.
    We're here today to discuss the reauthorization of this 
Office's vital work, which includes the Drug-Free Communities 
Program, which I'm very familiar with, a valuable grant program 
that mobilizes our communities to prevent youth drug use. It 
also includes the High Intensity Drug Trafficking Areas, or 
HIDTA, program, which operates through regional efforts with 
State, local, and tribal law enforcement agencies to dismantle 
and disrupt drug-trafficking areas.
    ONDCP's overall goals are substantial and the stakes are 
high. They include reducing drug use among our youth, reducing 
the chronic abuse of a wide range of substances, and lowering 
drug-related deaths and illnesses.
    Despite what often seem to be insurmountable obstacles, 
ONDCP is making progress on many of these fronts by engaging 
all of our community stakeholders, from police officers to 
health professionals.
    In 2010, ONDCP took a crucial step in recognizing that 
addressing drug addiction is not merely a public safety issue, 
it is a public health issue. We must tackle the demand for 
drugs as well as their supply. We must recognize that 
prevention and treatment are crucial tools that complement the 
law enforcement's efforts.
    I have seen up close and personal the ways that drug abuse 
can be destructive. I've often said that if you want to destroy 
a people, if you want to destroy a community, and you want to 
do it slowly but surely, you can do it through drugs.
    In my own city of Baltimore I've seen entire communities 
fractured and broken by drug use. I've seen landmarks like our 
world famous Lexington Market become synonymous with drug 
trafficking. I've seen people in so much pain, they don't even 
know they're in pain. I've seen people who used to be hard-
working citizens in our communities staggering through our 
streets, slumped over from the effects of heroin addiction. 
Right now, if you went to Baltimore in certain areas, you will 
see hundreds of them, people who have lost their way. And this 
is not the Baltimore where I grew up and it is not the 
Baltimore I know is possible.
    The leaders of the Washington-Baltimore HIDTA hold this 
conviction too. Over the years, they have demonstrated exactly 
how prevention and treatment efforts can complement law 
enforcement efforts. I'm also encouraged that our HIDTA is one 
of five organizations, as Mr. Connolly said, that will receive 
$2.5 million to address our Nation's heroin epidemic situation 
through the Heroin Response Strategy. Using wrap-around, a 
wrap-around approach that encompasses law enforcement, 
community involvement, and treatment and prevention strategies, 
the Washington-Baltimore HIDTA has dismantled 92 drug-
trafficking organizations, seized almost 12,000 kilograms of 
marijuana and nearly 3,000 kilograms of cocaine and 410 
kilograms of heroin all since 2013.
    It is because of these demonstrated successes that I was 
pleased to learn that the ONDCP is asking that Congress equip 
all of its HIDTAs with crucial prevention and treatment tools 
as well. Today I look forward to learning more about the 
changes ONDCP is proposing and what it has been doing to 
address recommendations for improvement provided by the 
Government Accountability Office.
    Finally, this is an issue that affects all of us, it 
affects all of us, and if it has not affected you yet, I 
promise you it probably will. Whether you live in west 
Baltimore or in the mountains of New Hampshire, drug abuse 
affects every community in America, every one of them.
    I look forward to working with all of my colleagues to 
ensure full and swift reauthorization of ONDCP, a program that 
is absolutely crucial to the future success, safety, and health 
of our great Nation.
    With that, Mr. Chairman, I thank you, and yield back.
    Mr. Meadows. I thank the gentleman for his insightful and, 
I guess, personal words, as it brings it home up close and 
personal for all of us. I thank the ranking member for that.
    I would hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    Mr. Meadows. And the chair has noted the presence of the 
gentleman from Ohio, earlier has checked in, Mr. Turner, a 
member of the full committee, and his interest in this 
particular topic is important. He has stepped out for an Armed 
Services hearing, but will be back joining us. So without 
objection, we welcome Mr. Turner to participate fully in 
today's hearing. Seeing no objection, so ordered.
    We will now recognize our panel of witnesses. And I'm 
pleased to welcome the Honorable Michael Botticelli. Is that 
correct?
    Mr. Botticelli. Botticelli.
    Mr. Meadows. Botticelli. All right. I'll try to get that 
better. The Director of the National----
    Mr. Connolly. He's more famous for painting paintings.
    Mr. Meadows. I got you. I got you.
    The Director of the National Drug Control Policy at the 
Office of National Drug Control Policy.
    Welcome.
    Mr. David Kelley, the congressional liaison at HIDTA, which 
is the National High Intensity Drug Trafficking Areas Directors 
Association. And Mr. David Maurer, Director of Justice and Law 
Enforcement Issues at the GAO.
    Welcome to you all.
    And pursuant to committee rules, we would ask all witnesses 
be sworn in before they testify, so if you would please rise 
and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    And in order to allow time for discussion, please limit 
your oral testimony to 5 minutes, if you would, but your entire 
written statement will be made part of the record.
    And, Mr. Botticelli----
    Mr. Botticelli. Very well.
    Mr. Meadows. --we will recognize you for 5 minutes.

                       WITNESS STATEMENTS

                STATEMENT OF MICHAEL BOTTICELLI

    Mr. Botticelli. Chairman Meadows, Ranking Member Connolly, 
Ranking Member Cummings, and members of the committee and 
subcommittee, thank you for the opportunity to appear before 
you today to discuss the administration's proposed legislation 
to reauthorize the Office of National Drug Control Policy. It's 
truly an honor to be in this position and to be at this hearing 
today.
    ONDCP was established by Congress under the Anti-Drug Abuse 
Act of 1988 and was most recently reauthorized by the Office of 
National Drug Control Policy Reauthorization Act of 2006. As a 
component of the Executive Office of the President, ONDCP 
establishes policies, priorities, and objectives of the 
national drug control program and ensures that adequate 
resources are provided to implement them. We develop, evaluate, 
coordinate, and oversee the international and domestic anti-
drug efforts of the executive branch and, to the extent 
practicable, ensure efforts complement State and local drug 
policy activities.
    ONDCP is responsible for issuing the administration's 
National Drug Control Strategy, which is our primary blueprint 
for drug policy. The strategy treats our Nation's substance 
abuse problems as public health challenges as well as public 
safety ones, an approach used to address drug control policy 
since this administration released its inaugural strategy in 
2010.
    In that strategy, ONDCP set ambitious and aspirational 
goals for reduction of illegal drug use and its consequences. 
We knew advancing these goals would be challenging. A careful 
examination of the most recent data shows that significant 
progress has been made in many areas, but we know we have far 
to go in many other areas as well.
    For instance, we have moved toward achieving our goals 
related to reducing chronic cocaine and methamphetamine use and 
we have met our goals related to reducing lifetime prevalence 
of tobacco and alcohol use among eighth graders. Looking at our 
goals related to the prevalence of illicit drug use by youth 
and young adults, we find that marijuana use so overwhelms the 
data that the progress we have achieved in reducing the use of 
other illicit drugs is not apparent.
    In addition to our activities across the interagency to 
address substance use disorders, ONDCP administers two 
significant grant programs, the High Intensity Drug Trafficking 
Area program and the Drug-Free Community Support Program.
    The HIDTA program was created as part of ONDCP's original 
authorization to reduce drug trafficking and production in the 
United States by facilitating cooperation among Federal, State, 
local, and tribal law enforcement agencies. The HIDTA program 
is a locally based program that responds to the drug-
trafficking issues facing specific areas of the country in 
which law enforcement agencies at all levels of government 
share information, enhance intelligence sharing, and coordinate 
strategies to reduce the supply of illegal drugs in designated 
areas. There are currently 28 HIDTA programs in 48 States.
    The DFC Program provides grants to local drug-free 
community coalitions, enabling them to increase collaboration 
among community partners to prevent and reduce substance use 
issues. During fiscal year 2015, ONDCP was able to award DFC 
grants to almost 700 community coalitions.
    The reauthorization legislation that the administration has 
provided to the committee would reauthorization ONDCP for 5 
years. The proposed statutory changes would strengthen ONDCP's 
ability to effectively respond to the range of complex drug 
problems confronting our Nation today.
    The legislation expands the list of authorized demand 
reduction activities to include screening and brief 
intervention for substance use disorders, promoting 
availability and access to healthcare services for the 
treatment of substance use disorders, and supporting long-term 
recovery. Language has also been added expressly making the 
reduction of underage use of alcohol part of ONDCP's demand-
reduction responsibilities.
    The proposed legislation would also extend authorization 
for the HIDTA program for 5 years. In addition, the bill will 
allow HIDTA boards, with the approval of the ONDCP Director, to 
provide support for programs in the criminal justice system 
that offer treatment for substance use disorders to drug 
offenders. Upon the request of a HIDTA executive board, the 
Director may authorize the expenditure of HIDTA program funds 
to support initiatives to provide access to treatment as part 
of a diversion alternative sentencing or community reentry 
program for drug offenders.
    We all know that such programs have proven successful in a 
number of jurisdictions across the country in breaking the 
cycle of drug dependence and crime by assisting offenders to 
overcome their substance use disorder.
    New language would also authorize the expenditure of HIDTA 
program funds for community drug-prevention efforts in excess 
of the current 5 percent level. Note that these expenditures 
for prevention and treatment efforts will be driven by the 
HIDTA executive boards should they see a need and at their 
discretion. In some instances, the use of a limited amount of 
funds to support a treatment program for drug offenders or to 
support a community prevention initiative may be means of 
reducing drug-related crime.
    As we have discussed with the committee, ONDCP intends to 
rearrange its organizational structure to facilitate greater 
collaboration among ONDCP's public health, public safety, and 
international policy staff across the spectrum of drug policy. 
Our new structure will facilitate the formation of broad-based 
issue-focused working groups, bringing together staff with 
policy expertise. This internal reorganization is separate and 
independent from the reauthorization bill and can largely be 
accomplished through our existing authorities.
    However, as most of the major drug control issues facing 
our country cannot be placed neatly into demand or supply 
reduction categories, the proposed authorization would 
eliminate ONDCP's deputy director positions. Leadership, 
however, will be overseen by the Director and coordinated 
through staff.
    I am glad to be here to discuss these issues with you in 
further detail. We are continually grateful for Congress and 
this committee's support for ONDCP's work to address substance 
use in this Nation. Thank you.
    [Prepared statement of Mr. Botticelli follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Mr. Meadows. Thank you very much for your testimony.
    Mr. Kelley, you're recognized for 5 minutes.

                   STATEMENT OF DAVID KELLEY

    Mr. Kelley. Thank you. Chairman Meadows, Ranking Member 
Connolly, Ranking Member Cummings, and distinguished members of 
the subcommittee, I'm honored to appear before you today to 
offer testimony highlighting the High Intensity Drug 
Trafficking Area program and to speak to the reauthorization of 
the Office of National Drug Control Policy, specifically to the 
recommendations of the HIDTA directors with regard to proposed 
reauthorization language.
    ONDCP establishes priorities and objectives for the 
Nation's drug policy. The Director is charged with producing 
the National Drug Control Strategy that directs the Nation's 
efforts. The current strategy promotes a focused and balanced 
approach.
    The HIDTA program is an essential component of the National 
Drug Control Strategy. The 28 regional HIDTAs are in 48 States, 
Puerto Rico, the U.S. Virgin Islands, and the District of 
Columbia. HIDTAs enhance and coordinate anti-drug abuse efforts 
from a local, regional, and national perspective, leveraging 
resources at all levels in a true partnership.
    At the national level, ONDCP provides policy direction and 
guidance to the HIDTA program. At the local level, each HIDTA 
is governed by an executive board comprised of an equal number 
of Federal, State, local, and tribal agencies. This provides a 
balanced and equal voice in identifying regional threats, 
developing strategies, and assessing performance.
    The flexibility of this leadership model creates the 
ability for the executive board to quickly, effectively, 
efficiently adapt to emerging threats that may be unique to 
their own HIDTAs. Investigative support centers in each HIDTA 
create a communication infrastructure that facilitates 
information sharing among law enforcement agencies to 
effectively reduce the production, transportation, 
distribution, and use of drugs.
    The strengths of the HIDTA program are truly 
multidimensional. One of the cornerstones of the program is its 
demonstrated ability to bring people and agencies together to 
work toward a common goal.
    The neutrality of the HIDTA program is viewed as another 
key to its success. HIDTA is a program, not an agency. HIDTAs 
do not espouse the views of any one agency, nor are we beholden 
to the mandates of any one agency. HIDTA serves only to 
facilitate and coordinate.
    While the enforcement mission remains paramount, HIDTAs are 
also involved in drug-prevention activities. The fact that we 
cannot arrest our way out of this drug problem is well 
recognized in the law enforcement community. The emerging 
partnership between public health and public safety has never 
been more important, and HIDTA provides the perfect platform to 
promote that partnership.
    The Washington-Baltimore HIDTA seeks to break the cycle of 
drug abuse and crime through well-organized criminal justice-
based treatment programs. The focus is to reduce crime in 
targeted communities and change the drug habits of repeat 
offenders.
    The New England HIDTA has partnered with the Boston 
University School of Medicine SCOPE of Pain program. Here, the 
opioid heroin epidemic is addressed at the front end through 
extensive prescriber education. Through an innovative use of 
discretionary funding, five HIDTAs have jointly developed a 
heroin response strategy to address the severe heroin threat in 
their communities. The strategy provides a unique, 
unprecedented platform designed to enhance public health, 
public safety collaboration across 15 States.
    ONDCP and the HIDTA program currently enjoy a collaborative 
and cooperative working relationship that has never been 
stronger. The National HIDTA Directors Association strongly 
encourages Congress to reauthorize ONDCP during this session.
    The National HIDTA Directors Association supports the 
existing language of the ONDCP Reauthorization Act of 2015, 
with three exceptions. First, the existing authorization 
specifies that the Director shall ensure that no Federal funds 
appropriated for the program are expended for the establishment 
or expansion of treatment programs. The proposed revision of 
this prohibition would allow the Director, upon request of a 
HIDTA executive board, to authorize the expenditure of program 
funds to support drug treatment programs. We support this 
change, but believe that funding should not exceed a cap of 10 
percent of the affected HIDTA's baseline budget.
    Second, in the past, no more than 5 percent of HIDTA funds 
could be expended for the establishment of drug prevention 
programs. The new wording allows the Director, upon request of 
the HIDTA executive board, to authorize the expenditure of an 
amount greater than 5 percent of program funds. We support this 
change, but again believe that funding should not exceed a cap, 
a maximum cap of 10 percent of the affected HIDTA's baseline 
budget.
    Third, and finally, the language authorizes an 
appropriation to ONDCP of $193.4 million for the HIDTA program. 
This amounts to a 22 percent reduction in program funding. This 
reduction would severely handicap the HIDTA program. The 
National HIDTA Directors Association respectfully recommends 
funding in the amount of $245 million, which was the amount 
awarded in fiscal year 2015.
    I thank you for allowing me this opportunity to testify 
before you this morning and I look forward to answering your 
questions.
    [Prepared statement of Mr. Kelley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Mr. Meadows. Thank you, Mr. Kelley, for your testimony.
    Mr. Maurer.

                   STATEMENT OF DAVID MAURER

    Mr. Maurer. Good morning, Chairman Meadows, Ranking Member 
Cummings, Ranking Member Connolly, and other members and staff. 
I'm pleased to be here today to discuss GAO's findings on 
Federal efforts to curtail illicit drug use and enhance 
coordination among Federal, State, and local agencies.
    Combating drug use and dealing with its effects is an 
expensive proposition. The administration requested more than 
$27 billion to undertake these activities in 2016. Ensuring 
this money is well spent, that we're making progress, and that 
the various agencies are well coordinated is vitally important.
    Over the years, GAO has helped Congress and the American 
public assess how well Federal programs are working. In many 
instances, it's, frankly, hard to tell, because agencies often 
don't have good enough performance measures. ONDCP, to its 
credit, has focused a great deal of time, attention, and 
resources on developing and using performance measures.
    Five years ago, the National Drug Control Strategy 
established a series of goals with specific outcomes ONDCP 
hoped to achieve by 2015. In 2013, we reported that a related 
set of measures were generally consistent with effective 
performance management and useful for decisionmaking. That's 
important to remember, especially when the conversation turns 
to what those measures tell us.
    Overall, there has been a lack of progress. According to a 
report ONDCP issued 2 weeks ago, none of the seven goals have 
been achieved, and in some key areas the trend lines are moving 
in the opposite direction. For example, the percentage of 
eighth graders who have ever used illicit drugs has increased 
rather than decreased. The number of drug-related deaths and 
emergency room visits has increased 19 percent rather than 
decreasing 15 percent as planned. Substantially more Americans 
now die every year of drug overdoses than in traffic crashes.
    Now, it's also important to recognize progress in some key 
areas. For example, there have been substantial reductions in 
the use of alcohol and tobacco by eighth graders, and the 30-
day prevalence of drug use by teenagers has also dropped.
    There has also been recent progress in Federal drug 
prevention and treatment programs. Two years ago, we found the 
coordination across 76 Federal programs at 15 Federal agencies 
was all too often lacking. For example, 40 percent of the 
programs reported no coordination with other Federal agencies. 
We recommended that ONDCP take action to reduce the risk of 
duplication and improve coordination.
    Since our report, ONDCP has done just that. It has 
conducted an inventory of the various programs and updated its 
budget process and monitoring efforts to enhance coordination.
    Another GAO report highlighted the risks of duplication and 
overlap among various field-based multi-agency entities. To 
enhance coordination, ONDCP funds and supports multi-agency 
investigative support centers in HIDTAs. These centers were one 
of five information-sharing entities we reviewed, including 
joint terrorism task forces and urban area fusion centers.
    We found that while these entities have distinct missions, 
roles, and responsibilities, their activities can overlap. For 
example, 34 of the 37 field-based entities we reviewed 
conducted overlapping analytical or investigative support 
activities. We also found that ONDCP and other agencies did not 
hold field-based entities accountable for coordination or 
assess opportunities to improve coordination.
    Since our report, ONDCP and the Department of Homeland 
Security have taken actions to address our recommendations. 
However, they have not yet sufficiently enhanced coordination 
mechanisms or assessed where practices that enhance 
coordination, such as serving on one another's governance 
boards or collocating with other entities, can be applied to 
reduce overlap.
    In conclusion, as Congress considers options for 
reauthorizing ONDCP, it's worth reflecting on the deeply 
ingrained nature of illicit drug use in this country. It's an 
extremely complex problem that involves millions of people, 
billions of dollars, and thousands of communities. There are 
very real costs in lives and livelihoods across the U.S. GAO 
stands ready to help Congress oversee ONDCP and the other 
Federal agencies as they work to reduce those costs.
    Mr. Chairman, thank you for the opportunity to testify 
today. I look forward to your questions.
    [Prepared statement of Mr. Maurer follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
    
    Mr. Meadows. Thank you so much. I appreciate the fact that 
you acknowledge maybe deficiencies, but also areas where 
performance was good. So thank you for that balanced testimony.
    The chair is going to recognize the vice chair of the 
subcommittee, Mr. Walberg, for his 5 minutes of questioning.
    Mr. Walberg. Thank you, Mr. Chairman. I appreciate that and 
enjoyed my time in your district over Thanksgiving. I'm 
notifying you of that now since you don't have a chance to call 
the sheriff.
    Back to serious. Like many areas across the country, the 
communities in my district, Mahnomen County right on the Toledo 
line and others, have experienced some significant struggles in 
fighting against the growing tide of heroin use and abuse and 
also the misuse of medication, prescription pain medicines as 
well.
    I'm aware that ONDCP has increased some of their efforts in 
this area, specifically through the Heroin Response Strategy. 
Unfortunately, this program is limited to certain regional 
areas.
    Mr. Botticelli, what efforts has ONDCP undertaken to 
address prescription drug abuse and heroin use?
    Mr. Botticelli. Sure. Thank you, Congressman, for that 
question. And I think there's no more pressing issue that faces 
ONDCP and the country right now than the morbidity and 
mortality associated with prescription drugs and heroin.
    You know, part of the work that ONDCP does is continuing to 
monitor these drug trends and make sure that we are putting 
resources and efforts against those. In 2011, ONDCP released a 
prescription drug abuse plan acknowledging the role that 
particularly prescription drugs were playing at the time as it 
relates to some of these issues. These included broad-based 
efforts to reduce the prescribing of these prescription 
medications, to call for State-based prescription drug 
monitoring programs so that physicians would have access to 
patients' prescribing histories, to look, working with our 
partners at the DEA, to reduce the supply of drugs coming from 
many of these communities, and to also coordinate law 
enforcement actions.
    We also simultaneously called for an increase in resources, 
particularly treatment resources, to deal with the demand that 
we've seen for those resources.
    And we've made some progress in those areas. We've seen 
reductions in prescription drug misuse among youth and young 
adults. We've seen a leveling off of prescription drug 
overdoses over the past several years. Unfortunately, however, 
that's been replaced by significant increases in heroin-related 
overdose deaths.
    Mr. Walberg. Is that simply where they're going because of 
reduced cost to them, accessibility, and other reasons?
    Mr. Botticelli. So when we look at data, it appears that 
only a very small portion of people who have misused 
prescription drugs actually progress to heroin, about 5 
percent. But if you look at newer users to heroin, 80 percent 
of them started misusing pain medication. So we know to deal 
with the heroin crisis compels us to deal with the prescription 
drug use issue.
    But we're also focusing on how we address the heroin issue, 
again from a comprehensive perspective. We know that some of 
this is related to the vast supply of very cheap, very pure 
heroin, in parts of the country where we haven't seen it 
before. As Congressman Cummings talked about, we know that 
heroin has been in many of our communities for a long time, but 
we really have to diminish the supply that we have.
    But we also have to treat it, make sure that people have 
access to good evidence-based care. And we've also been 
working, quite honestly, in our partners with law enforcement 
to diminish and reduce overdoses through the overdose reversal 
drug Naloxone.
    And, you know, I have to say I've been really heartened by 
how law enforcement across this country has taken on not only 
reversing drug overdoses, but also to the point of not 
arresting people, are shepherding people into treatment. So not 
only have we seen our law enforcement entities respond in terms 
of reducing overdoses, but are really accelerating and coming 
up with what I think are really innovative programs to get 
people into treatment.
    Mr. Walberg. Okay. Thank you.
    So, Mr. Kelley, what efforts has the HIDTA program 
undertaken to address prescription drug abuse and heroin use, 
following up with what Director Botticelli said?
    Mr. Kelley. Sure. And thank you for that question.
    The HIDTA program has historically always identified the 
most prevalent threat. There is no greater threat, certainly in 
the Northeast, but throughout other areas of the country, than 
the abuse of heroin and controlled prescription drugs. It is 
probably the overriding issue taking the lives of so many. So 
for that reason, the HIDTA program has put that firmly on the 
radar.
    The HIDTA program, through its enforcement efforts of 
Federal, State, and local at the ground level, comprised of 
Federal agencies, State, and local working together to 
identify, number one, the source of the heroin that's coming 
into this country, dealing with the drug-trafficking 
organizations that have literally invaded our communities 
through a variety of investigative methods.
    But the HIDTA program also embraces, as I said earlier, a 
very holistic and multidisciplinary approach. We recognize in 
law enforcement across this country each and every day that we 
can't arrest our way out of this problem. And so for that, we 
have reached out to the public health community, we have made 
partnerships where partnerships never were before.
    Mr. Walberg. International as well?
    Mr. Kelley. International as well. International through 
ONDCP and the DEA, which are probably the backbone of many 
HIDTAs, have worked to identify where it's coming 
internationally. And when we do that, we try to interrupt that 
supply line. The supply line goes to distribution areas 
throughout the United States. We have HIDTA groups that day in 
and day out focus primarily, again, on the major trafficking 
organizations, not the user on the street per se, not the 
person that's afflicted medically that's the victim of a 
disease, but by those organizations that are making money at 
the anguish of so many.
    So we look at it in a multidisciplinary approach from 
enforcement, from prevention, and from partnerships that we've 
established throughout the public safety and public health 
community.
    Mr. Walberg. Thank you.
    And my time has expired, and thanks for the latitude.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the ranking member of the 
subcommittee, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Mr. Chairman, I would be pleased to defer to 
the distinguished ranking member of the full committee, Mr. 
Cummings, if he wishes to go.
    Mr. Cummings. Thank you very much.
    In trying to tackle drug use from all angles, I understand 
that ONDCP uses demand-reduction efforts as well as supply 
reduction efforts. I also understand that ONDCP would like to 
clarify in the definition section of this new reauthorization 
that it is demand reduction work can include prevention, 
treatment, and recovery efforts.
    Now, Mr. Botticelli, can you give some examples of what you 
mean by prevention, treatment, and recovery efforts, briefly?
    Mr. Botticelli. Thank you, Congressman.
    As you noted, one of the overriding efforts of our office 
is to restore balance to drug policy, that for too long we have 
used public safety as our prime response to issues of drug use 
in many of our communities. And under this administration we've 
really tried to focus on a balanced portfolio of increasing our 
demand-reduction efforts and treating this as a public health 
issue.
    Our understanding of addiction has changed dramatically 
from understanding this just as a criminal justice issue, but 
as an acute condition and really understanding this as a 
chronic disease, that one that we can prevent. We've seen some 
dramatic reductions in underage youth use through our DFC 
coalitions.
    But we also know that many times we have let this disease 
progress to its most acute condition. And so that's why we're 
calling for language to allow us to do a better job of 
screening people and intervening early in their disease before 
they reach that acute condition and before, quite honestly, 
they intersect with the criminal justice system.
    But we also know that to treat this issue requires more 
than just acute treatment, that this is a chronic disease that 
requires long-term recovery. And we know that people need 
additional supports beyond just treatment, things like housing, 
employment, peer recovery networks. So part of our language 
change allows us to focus on that continuum of demand-reduction 
strategies that we know to be effective in dealing with this as 
a public health issue.
    Mr. Cummings. Now, I understand that ONDCP would like 
Congress to allow all HIDTAs at the request of their boards to 
use treatment efforts and to expand their abilities to use 
prevention efforts. I support this, because 27 of the 28 HIDTAs 
already understand the importance of using prevention-focused 
activities. I also support this because I have seen HIDTA 
treatment efforts work so well in the Baltimore-Washington 
HIDTA, which is one of the two HIDTAs that currently allows for 
treatment.
    Our Washington-Baltimore HIDTA has provided drug treatment 
to about 2,000 individuals with criminal records to date, and 
over half of these have successfully completed their treatment 
programs. Furthermore, the recidivism arrest rate for these 
HIDTA clients after 1 year has been just 28 percent, while 
comparable recidivism rates across many States is over 40 
percent.
    In addition to the successes I mentioned in my opening 
statement, the Washington-Baltimore HIDTA has captured over 
4,000 fugitives from drug charges and removed over 2,000 
firearms from the streets in the last 3 years alone.
    So, Mr. Kelley, in your written testimony you noted that 
the law enforcement community recognizes, ``We cannot arrest 
our way out of this problem.'' Would you agree that treatment 
and prevention efforts have augmented the Washington-Baltimore 
HIDTA's ability to carry out its mission, and how so?
    Mr. Kelley. I would agree with that, Congressman. And how 
so is that the HIDTA program traditionally has been an 
enforcement-based program, and that's where our greatest 
success has lied over the years and continues to show great 
success from that. But we also recognize as law enforcement 
professionals that the multidisciplinary, multifaceted approach 
is so very important as the landscape of drug abuse has 
changed, that treatment and prevention play crucial roles in 
the overall strategy. The Washington-Baltimore for many years, 
and has had treatment programs well before the prohibition was 
in place, has shown great success.
    However, we also recognize that it is a very, very 
expensive proposition, the treatment end of things. Prevention 
has been throughout the HIDTA program for a number of years.
    The flexibility of the HIDTA program, the beauty of the 
HIDTA program is our ability to bring people together to make 
the best possible use of resources, to tap into other treatment 
sources, to tap into other prevention resources, together with 
some limited HIDTA funds to make a great impact. I really 
believe that that can continue should the Congress reauthorize 
under the current reauthorization language, and I believe that 
treatment does have a place at the table. I think most HIDTAs 
across the land, if not all, would agree with that. And the 
executive board would have that ability to bring that aspect of 
the strategy into play should they desire to do that.
    Mr. Cummings. Now, Mr. Botticelli, other HIDTAs are also 
using prevention tools like encouraging law enforcement 
departments to use Naloxone. And I'm very familiar with 
Naloxone. And one of the things that has concerned me is that 
they jacked up the prices. The manufacturer, knowing that this 
is a drug that could save people's lives and has saved people's 
lives, they jacked up the prices. And I've been all over them, 
I mean.
    And I'm just wondering what efforts have you all--I mean, I 
know you know this, and I'm wondering, what, if anything, that 
you all have done to try to encourage the manufacturer of this 
lifesaving drug to be reasonable.
    Mr. Botticelli. Thank you for those comments. And I too was 
very disturbed that the manufacturer decided at this time of 
great demand to more than triple the price of Naloxone. We know 
that it diminishes the ability of many of our community-based 
organizations and law enforcement to really expand this 
distribution.
    You know, we have been pursuing a number of goals. I am 
pleased to say that just a few weeks ago the FDA approved a new 
nasal administration developed by another manufacturer. So we 
hope that that will continue to bring some competition to the 
marketplace and drive down demand.
    We have also looked at establishing part of our work over 
the past several years of establishing dedicated grant programs 
either through existing Federal grants or additional dollars to 
help support the additional purchase of Naloxone because of 
this lifesaving drug. But it is particularly disconcerting to 
me, Congressman, that people took advantage of some of the 
incredible dire need that we have out there to significantly 
raise the price.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And thank you, Mr. Connolly, for yielding.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from South Carolina, Mr. 
Mulvaney, for 5 minutes.
    Mr. Mulvaney. Thank you very much.
    Gentlemen, thank you very much for being here today.
    I just want to go over a couple of things that Mr. 
Botticelli said in his opening testimony, Mr. Maurer touched on 
briefly, and it's in the reports that we have in front of us.
    I heard Mr. Botticelli said that they've made substantial 
or significant progress in the area since 2010, but I heard Mr. 
Maurer say something a little bit different. So let's drill 
down into these seven goals.
    Mr. Maurer, I couldn't find the seven goals. Could you 
briefly tell us what they were that the GAO took a look at? You 
mentioned one of them, which was eighth grade marijuana use, I 
think, or something like that. But tell us what the seven goals 
were.
    Mr. Maurer. Sure. The seven national goals that were set 
out in the 2010 strategy were to look at 30-day use by 
teenagers; eighth grade lifetime drug use, and that was broken 
down by illicit drugs, alcohol, and tobacco; 30-day use by 
young adults; the amount of chronic users of different illicit 
drugs; drug-related deaths; drug-related morbidity; and then 
rates of drugged driving.
    Mr. Mulvaney. All right. And if I read the GAO's summary 
correctly, here's what I see. Mr. Botticelli, stop me if I'm 
wrong, and I'll come back and ask you to answer some questions 
on this. That in March of 2013, the GAO said that, on those 
seven goals that had been laid out in 2010, that you folks, Mr. 
Botticelli, had made progress on one, no progress on four, and 
there appeared to be a lack of data on the other two.
    Fast forward to a couple weeks ago when your own analysis 
came out, and you folks said that you had made progress on one, 
no progress on three, and what someone described as, ``mixed,'' 
progress on three others.
    So I guess here's my question, guys. It's now 5 years. None 
of them have been achieved. You've made progress on one, Mr. 
Botticelli. Tell me, why are we still spending money on this? 
Why are you all still--why are we still doing this if you've 
had 5 years and we're, according to Mr. Maurer, we're actually 
getting worse, not better? So tell me how substantial progress 
has been made.
    Mr. Botticelli. Sure. So let me go over in detail in terms 
of where our progress is.
    Mr. Mulvaney. Sure.
    Mr. Botticelli. And I will be happy to have a subsequent 
conversation with you.
    One of the main measures we look at, particularly as it 
relates to youth, because we know that youth are particularly 
vulnerable, when we look at the decrease in prevalence, 30-day 
prevalence rates of drug use among 12 to 17-year-olds, that we 
have made considerable progress toward those goals that are----
    Mr. Mulvaney. Twelve to 17 is the young adult group that 
he----
    Mr. Botticelli. Correct.
    Mr. Mulvaney. Okay.
    Mr. Botticelli. Correct. And clearly we know that substance 
use by young adults really can set a lifelong trajectory of 
pattern.
    When we look at eighth graders, because, again, we know 
that early use predicts lifetime--often predicts lifetime use, 
when we look at illicit drug use, that's where we have not made 
progress. And, again, if you take marijuana out from other 
illicit drugs, that we have made progress, not on marijuana, 
but on other illicit drug use. But we have met the goals as 
it's related to alcohol and tobacco use.
    Mr. Mulvaney. Let me stop you there and go to Mr. Maurer on 
this.
    Do you agree with that, by the way? If we take marijuana 
out, have they made substantial progress on the other?
    Mr. Maurer. We didn't have access to the root data to allow 
us to perform that kind of analysis, but it seems to fit with 
some of the broader trends we've seen in other sources.
    Mr. Mulvaney. Okay. Thanks.
    Go ahead, Mr. Botticelli.
    Mr. Botticelli. So one of the other issues that we look at 
is chronic users, because we know that these are folks who 
often have addictive issues, they often are involved in 
criminal behavior. And when you look at a number of those 
markers in terms of cocaine use and in terms of methamphetamine 
use, we've seen significant reductions and we are moving toward 
our goal.
    Marijuana use we're not. We're moving away from that goal. 
And we've seen a dramatic increase in the chronic use of 
marijuana, particularly among young adults in this country.
    If you look at our marker that looks at reducing drug use 
among young adults in the country, we've seen no change. But, 
again, if you take marijuana out of the young adult use, we've 
seen significant, and actually would have met our target for 
reducing drug use if it were not for marijuana--increases in 
marijuana use.
    Mr. Mulvaney. Mr. Maurer, if you had the access to that 
root data and had the ability to separate out marijuana use--
and maybe marijuana use is different now than it was in 2010, 
we've got States legalizing it, decriminalizing it--would it 
give Congress better data, a better look into what Mr. 
Botticelli's organization is accomplishing if we could separate 
out that particular illicit drug?
    Mr. Maurer. Absolutely. Access to better data would give 
better information to inform congressional decisionmaking. We'd 
be happy to do that.
    Mr. Mulvaney. Mr. Botticelli, are you able to do that?
    Mr. Botticelli. Yes.
    Mr. Mulvaney. Okay.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the ranking member of the 
subcommittee, Mr. Connolly, for 5 minutes.
    Mr. Connolly. I thank the chair.
    Mr. Botticelli, Mr. Mulvaney was just asking about metrics. 
And Mr. Maurer's testimony, I think, left the impression that 
actually, rather than progress, we're experiencing 
retrogression. Are we making progress in heroin use in the 
United States?
    Mr. Botticelli. Clearly we are not, sir.
    Mr. Connolly. Are we making progress in cocaine use in the 
United States?
    Mr. Botticelli. Yes, we are.
    Mr. Connolly. And marijuana, of course, is now in a legal 
limbo, not at the Federal level, but clearly States are moving 
away. And I think Mr. Mulvaney's quite right, you need to 
desegregate that if we're going to have accurate data.
    I mean, one of the things about metrics is, and it seems to 
me that even the seven metrics cited, they're a little bit 
broad. And we kind of want to dig down, because I think all of 
us on a bipartisan basis, what we want to do is try to end the 
drug scourge. Whatever is the most efficacious way to do that, 
you know, it's what we want too.
    One of the concerns I've got, Mr. Kelley--and by the way, 
where--are you from Boston?
    Mr. Kelley. I'm----
    Mr. Connolly. Where are you from?
    Mr. Kelley. I am.
    Mr. Meadows. We were commenting that the----
    Mr. Connolly. If I could have----
    Mr. Meadows. --the accent is a little bit----
    Mr. Connolly. I'll rephrase it. Where are you from?
    Mr. Kelley. Melrose, Massachusetts.
    Mr. Connolly. Melrose. All right. Brighton and Allston. I 
can talk that way if I have to, but I try not to now that I 
represent Virginia, of course.
    Currently, Mr. Kelley, we have in law in the last 
reauthorization a 5 percent cap on prevention and treatment for 
your program. Is that correct?
    Mr. Kelley. That's correct.
    Mr. Connolly. And the new legislation proposed by the 
administration would double that to 10 percent. Is that 
correct?
    Mr. Kelley. It would allow for a--the current language 
would allow for an amount greater than 5 percent, and the HIDTA 
Directors is recommending that it be capped at 10 percent.
    Mr. Connolly. Effectively capped, but not statutorily 
capped?
    Mr. Kelley. Not statutorily.
    Mr. Connolly. Right.
    Mr. Kelley. It would be a recommendation.
    Mr. Connolly. Okay. That's what I was getting at. Because I 
have a problem with a cap, because any cap is arbitrary, and in 
any given program you might determine or your colleagues around 
the country might determine, you know, in this particular case, 
the prevention and treatment rate is the way to go. And so the 
mix might be different in South Carolina or North Carolina or 
Virginia, and I want to make sure you've got flexibility 
without diluting the value of the program. Is that the goal 
you're seeking as well?
    Mr. Kelley. That's exactly right, Congressman. The goal is, 
is to maintain, to strike that balance, to maintain the 
integrity of the HIDTA program as we all know it, and the 
success of the program, as we all know it, which has primarily 
been enforcement based, disrupting, dismantling drug 
trafficking organizations aimed at the supply. We also 
recognize the prevention and treatment aspect of the holistic 
approach.
    So the HIDTA directives, in trying to avoid diluting the 
program or mission creep, being law enforcement professionals, 
knowing that there's already a 5 percent, which, I might add, 
that no HIDTA in the country has approached--in recent memory, 
has approached 5 percent of this spending on a prevention 
program, yet they have that ability. We feel that allowing an 
open-ended spending, or funding for those, has a possibility of 
changing the structure and integrity of the HIDTA program or a 
particular HIDTA as we know it.
    The strength of the HIDTA program across the Nation, all 28 
or 32, depending on the southwest border, how you choose to 
view it, is its unity in strategy. If we had one or more that 
really bent a particular way because of open-ended funding, I 
think it would change the landscape of HIDTA as we know it.
    Mr. Connolly. Okay. But your testimony also says we can't 
arrest our way out of this problem. Let me ask the devil's 
advocate question: Why not? Why not just arrest anybody who's 
misusing drugs and just put them where they belong and call it 
a day? Isn't that a more effective strategy?
    Mr. Kelley. No. Unfortunately, that is not the case. I 
think----
    Mr. Connolly. For everyone watching on C-SPAN, that was a 
devil's advocate question.
    Mr. Kelley. Right. But it is--no, we can't arrest--there is 
not enough jails, there are not enough police officers, there 
are not enough law enforcement officers to do that, number one.
    Mr. Connolly. And isn't it also true, Mr. Kelley, that when 
people do end up in the jail, they get treatment, or they have 
to get treatment because we can't ignore the problem in jail 
either?
    Mr. Kelley. We would hope that that would be the case but 
not always, not always. And sometimes they come out worse than 
when they went in. And so, I think law enforcement across the 
land has had a paradigm shift, and they understand, for that 
very reason, it's kind of a cliche now, we can't arrest our way 
out of a problem, nor do we want to. They also recognize an 
addiction is a disease, and needs to be treated.
    However, those that capitalize and benefit from that 
tragedy are the ones we're after.
    Mr. Connolly. Final question. You talked about budget 
reductions from fiscal year 2015. Can you just expand on that 
and what the impact of those budget reductions have been?
    Mr. Kelley. Well, the HIDTA program is historically--has 
been very valuable in using the funding that's been 
appropriated. We have, in the past, provided a very substantial 
return on investment. To reduce this program would put us back 
many, many years in the progress we've made. Certainly, the 
language in the authorization----
    Mr. Connolly. Have we reduced the program?
    Mr. Kelley. Have we reduced it? No, we have not. In fact--
--
    Mr. Connolly. But I thought you talked about a budget 
reduction from fiscal year 2015. Did I miss that?
    Mr. Kelley. Let me just check.
    Mr. Connolly. Mr. Botticelli.
    Mr. Kelley. No, I----
    Mr. Connolly. Well, while he's checking, Mr. Botticelli, 
did you want to--I'm sorry. I'm taking a little more time.
    Mr. Botticelli. Sir, thank you for that question. The 
dollar amount reflected in the reauthorization language was 
actually taken from the President's fiscal year 2016 budget 
proposal.
    Mr. Connolly. Okay.
    Mr. Botticelli. And not representative of level funding of 
the program.
    Mr. Connolly. Mr. Kelley.
    Mr. Kelley. My testimony was, Congressman, is that what the 
HIDTA directors were recommending, instead of going back, in 
fiscal year 2015, the HIDTA program, Congress awarded us $245 
million, and we've done tremendous things with that money. To 
go back to 193.4 as--and I know it comes out of appropriations, 
but in the language of reauthorization in print, should someone 
decide to latch onto that, would be a 22 percent reduction, it 
would severely handicap the program.
    Mr. Connolly. Thank you. And thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
the gentleman from Ohio, Mr. Turner for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman. I want to follow on to 
the issues of my good friend, Gerry Connolly, about the issue 
of incarceration and treatment.
    Director Botticelli, I want to thank you for your 
leadership on this issue of the heroin epidemic, and your 
visiting with members of the Ohio delegation about its impact 
in our communities.
    As you know, we've discussed that judges and prosecutors in 
my district have said that upwards of 75 percent of the 
individuals they arrest or prosecute are suffering with 
substance abuse or addiction. And you and I have discussed the 
fact that actually the Federal Government has barriers in place 
that inhibit an ability for someone who is incarcerated to 
receive treatment, and I want to talk about two of those with 
you today and get your thoughts.
    The SAMHSA policy, for example, since 1995, the Substance 
Abuse and Mental Health Services Administration has had a 
policy in place that prohibits the use of grants from its 
Center for Substance Abuse Treatment for treating individuals 
who are incarcerated. Obviously, in this instance, we're not 
talking about additional resources, just resources being 
applied to those who are incarcerated.
    Our second one is that Medicaid IMD exclusion. Medicaid's 
institution for mental disease exclusion expressly prohibits 
reimbursement for services provided to individuals who are 
incarcerated. Now, these are individuals who are entitled to 
receive Medicaid, they qualify for Medicaid, and the treatment 
services that they would receive are not permitted during the 
period of incarceration, and one of the things that we know 
from heroin addiction is it often leads to theft to feed the 
addiction or other types of criminal activity that results in 
their incarceration.
    Now, I've introduced H.R. 4076, the TREAT Act, which would 
repeal both of those prohibitions. It would allow SAMHSA money 
to be used during incarceration for treatment, and also for 
those individuals who are Medicaid-eligible during their 
incarceration for Medicaid to be able to reimburse for those 
expenses for treatment, because as you indicated, Mr. Kelley, 
people are not receiving treatment once they're incarcerated.
    Director Botticelli, I was wondering if you would speak for 
a moment about those two exclusions of the use of Federal 
dollars, and whether or not you believe lifting those barriers 
might help others get treatment?
    Mr. Botticelli. Great. Thank you, Congressman. It was a 
pleasure meeting with the Ohio delegation. I really appreciate 
your interest in this.
    So to your point, first and foremost, we want to divert 
people away from incarceration in the first place. I expressed 
to you privately, I saw a really innovative program in Dayton, 
Ohio, where the police chief is actually holding community 
forums to get people into care instead of arresting and 
incarcerating them.
    But to your point, for those people who are incarcerated, 
we do want to ensure that they have good access to high quality 
treatment. As Mr. Kelley talked about, unfortunately, that 
takes a tremendous amount of resources, and because of the 
prohibition on Medicaid, that often goes to the State, either 
the corrections or the State public health agency, to help 
support treatment, but unfortunately, too few people have 
access to them.
    So any opportunity that we have to work with Congress to 
look at how we get additional--how we ensure that people who 
are incarcerated get good care behind the walls becomes really 
important, because we know those people come back to our 
community, and that untreated addiction, when they come back, 
will just perpetuate the cycle of crime and addiction.
    Mr. Turner. In the SAMHSA policy, same thing, grants that 
are being made available to communities, and--but they're 
excluded to be used for those who are incarcerated.
    Mr. Botticelli. We'd be happy to work with you because, 
again, I think, you know, any opportunity that we have to 
increase the capacity of our jails and prisons, to expand 
treatment capacity for people behind the walls is a top 
priority for ONDCP.
    Mr. Turner. Director Botticelli, I appreciate your interest 
in this.
    Mr. Kelley, I appreciate your bringing to focus the issue 
that there aren't the resources to bring treatment there. Do 
you have any comments that you want--wish to add?
    Mr. Kelley. No, I--Congressman, I bring those comments 
because I'm well aware in our area, in New England, we deal 
with correctional institutes on a fairly frequent basis on a 
number of issues. I can tell you from my past law enforcement 
experience, most, if not all, issues that I dealt with had some 
relation to drugs, a drug abuse, and there were a number of 
people that I knew personally that went into the correctional 
institute, came back out, and within a short period of time, 
without treatment, they were back committing crimes and back on 
the addiction. So it is very, very important from a personal 
standpoint.
    Mr. Turner. Mr. Maurer, do you have comments?
    Mr. Maurer. Yeah, we've done some work looking at the 
Federal prison system at GAO, and the Bureau of Prisons has 
expanded the amount of resources it spent over the last few 
years, specifically on drug treatment programs for inmates in 
the Federal system who are eligible for those programs.
    One of the big incentives for inmates to take advantage of 
those programs is they can have a reduction in the amount of 
their sentence if they successfully complete those programs.
    Mr. Turner. Thank you.
    Mr. Meadows. I thank the gentleman for his insightful and 
well-informed questions, and so the chair now recognizes the 
gentlewoman from the District of Columbia, my friend, Ms. 
Norton.
    Ms. Norton. I appreciate this hearing, Mr. Chairman. We've 
heard--we've heard from Mr. Maurer about the increase in use, 
and I certainly am not going to blame that on HIDTA or the drug 
administration, nor does he. In fact, staying ahead of the drug 
du jour has become such a challenge that I think we ought to 
concede that it will always be a challenge. If we concede that, 
then looking into what we can really do would make sense.
    I really have a question on the drug du jour in the 
District of Columbia, synthetic drugs, and another question on 
marijuana. But we certainly remember when the drug that the 
entire Nation was focused on was crack cocaine. Now, of course, 
everybody is focused on opiate and heroin, and it is going to 
change tomorrow.
    I was very interested in Mr. Turner's question about 
treating people when they are behind bars, because I had a 
roundtable last night. You know, there are 6,000 Federal 
returning citizens now all around the country, because of the 
reduction in the sentence for mandatory minimums.
    This was one of the great law and law enforcement American 
tragedies. We treated crack cocaine differently from cocaine, 
100 to 1, and you essentially--or we essentially--by the way, 
Democrats and Republicans. This was certainly not partisan--
essentially destroyed what was left of the African American 
family. Most of these were black and Latino men in their mid-
30's, by the way, right at the prime of life.
    All right. So today, you hear about opiates, of course, and 
heroin, and, well, you might, and about the law enforcement 
approach that you have been authorized to pursue. But I must 
ask you, Mr. Botticelli, in light of prevention, I don't see 
how you can prevent the next drug du jour. I mean, we haven't 
even brought up the word synthetic drugs yet, but I am 
cosponsor with several members on the other side of a bill to 
deal with that new phenomenon. But if--you can't expect law 
enforcement to prevent new drugs or drugs from changing, I'm 
not sure why they change.
    At the very least, it seems to me, at least my roundtable 
told me, that once you have somebody, you will often find, as 
we did when we had these witnesses who had just been released 
from mandatory minimums, had their mandatory minimum reduced by 
an average of 2 years; in questioning them, the length--these, 
of course, were drug traffickers. They got into drug 
traffickers by using drugs, and I couldn't help but believe 
that if somehow treatment had been earlier available, we might 
have prevented what was one of the worst tragedies in law 
enforcement in American history, and now we're trying to make 
up for it.
    So you say, okay, shouldn't be 5 percent, should be 10 
percent. That has the ring of a number pulled out of the air, 
because you now have 5 percent because you're flat-funded, and 
because you don't think you can get anymore. I mean, is that 
essentially the long and short of it in terms of what is 
effective, as you now pursue newer and newer drugs every 
decade, it would appear? Where did you get 10 percent from, 
especially as a cap?
    Mr. Kelley. Where we got the 10 percent from, 
Congresswoman, is that was a figure that was derived in two 
different ways. Number one, using the prevention history of the 
HIDTA program. Even though that 5 percent of funding has been 
available for some period of time across the Nation, many 
HIDTAs have never approached that, and it's not from the lack 
of----
    Ms. Norton. How about treatment?
    Mr. Kelley. Treatment has never been----
    Ms. Norton. Except in this region we have--because we were 
grandfathered in.
    Mr. Kelley. You were grandfathered in, correct.
    Ms. Norton. Has the experience that the ranking member 
spoken about educated you at all about treatment?
    Mr. Kelley. Is that directed to me?
    Ms. Norton. Yeah, to you, or Mr. Botticelli.
    Mr. Kelley. Oh, certainly it has, and, in fact, I speak for 
all HIDTA directors, when they recognize the value of 
treatment, most definitely, but----
    Ms. Norton. But how did--I mean, what was the basis for 10 
percent?
    Mr. Kelley. 10 percent was based on----
    Ms. Norton. I'm not suggesting another percentage. I'm just 
suggesting it may not be evidence-based, particularly in light 
of treatment.
    Mr. Kelley. It was more based on the budget, and the fact 
of the matter is, is that, historically, we've never exceeded, 
in the prevention realm, more than 5 percent. I also spoke 
about the partnership that we have with ONDCP and the fact that 
we, as law enforcement professionals, value that, and the fact 
that by elevating it to increasing, almost doubling, that would 
give the executive boards fairly wide discretion in using an 
effective baseline.
    Now, the baseline of a HIDTA differs across the Nation. 
Some of those, for example, in New England, HIDTA's baseline is 
$3.1 million per year. That would allow the executive board, 
upon approval of the director, to use upwards of $300,000 as a 
maximum. That is also very important to realize is that that is 
not the only source of funding for treatment that would be 
available.
    The beauty of the HIDTA program is our partnerships across 
the spectrum of health care, and in coordinating with other 
people, we can really maximize that impact. But I think it goes 
back to allowing for treatment, allowing for prevention, 
allowing for enforcement, that multi-disciplinary approach is 
very, very important, and we recognize that, but we also 
recognize the fact that we are flat-funded across the Nation. 
Discretionary funding sometimes is--varies, and discretionary 
funding would allow--the more discretionary funding certainly 
would allow HIDTAs across the land to use more money for these 
kinds of programs.
    Mr. Meadows. All right. I thank the gentlewoman. Thank you, 
Mr. Kelley, for your response. The chair recognizes the 
gentleman from Wisconsin, Mr. Grothman, for 5 minutes.
    Mr. Grothman. Thank you. I guess I would ask Director 
Botticelli, how many of people died of heroin overdoses last 
year in this country?
    Mr. Botticelli. Sir, we had over 8,000 people die of heroin 
overdoses in the United States, and that was data from 2013.
    Mr. Grothman. I think that's a lot higher. You're sure it's 
only 8,000?
    Mr. Botticelli. That's the best available data that we 
have. I think there has been some estimation that because of--
because of the information variability that comes from medical 
examiners and coroners, that that might be underreported, but 
that's the best available data that we have.
    Mr. Grothman. And when I just look at--because when I get 
around my district, I talk to my sheriffs, how many people died 
in your county last year of heroin overdoses, and I don't--I 
don't really think of Wisconsin as being the heroin center of 
the world, and I'm telling you, when I multiply it out, you 
know, by counties or by population, it would be higher than 
that by a factor of, you know, three times or something. Are 
you sure it's only 8,000, even close to 8,000?
    Mr. Botticelli. Let me just say that this is 2013 data, 
that we expect in the next few weeks to have 2014 data 
available. Based on my conversations and my travels around the 
country and what I've heard as well, I would highly anticipate 
that the number of heroin-associated deaths is far higher than 
that 8,000.
    Mr. Grothman. How do you--I mean, that just bothers me off 
the top of a bunch of other questions, but I mean, how are you 
getting that data? Is every county reporting? I mean, is that 
comprehensive, or do different counties have different ways of 
reporting? You think 8,000?
    Mr. Botticelli. So the way that the reporting works is that 
county medical examiners, or coroners, report that data to the 
State and to the Federal level. You know, as I've indicated, 
there is probably wide variability and the reliability of that 
reporting----
    Mr. Grothman. Yeah.
    Mr. Botticelli. --about what goes on those death 
certificates. We've been actually trying to work at enhancing 
the quality of our data, but again, this is 2013 data.
    Mr. Grothman. Okay. Maybe I can help you with that.
    Mr. Botticelli. Okay.
    Mr. Grothman. Why don't you get me the data for Wisconsin--
--
    Mr. Botticelli. Sure.
    Mr. Grothman. --and then I can tell you the Wisconsin data 
is accurate, and we get a clue as to whether you're right or 
wrong.
    Second question. Where is this heroin coming from?
    Mr. Botticelli. So we know that the vast majority of heroin 
that's coming into the United States is coming from Mexico, and 
this really compels us to not only work domestically with 
demand reduction strategies and with domestic supply reduction 
strategies, but with our colleagues in Mexico.
    I was just in Mexico 2 months ago meeting with our 
colleagues there, and one of the main agenda items of our 
security dialogue was what additional actions that the Mexican 
government can take in terms of eradication of poppy fields, of 
going after heroin labs. We are seeing a dramatic increase in 
fentanyl-associated deaths, which we know that the fentanyl, 
which is this very powerful morphine-like drug that seems to be 
driving up deaths across the United States, but much of the 
fentanyl appears to be coming from Mexico as well.
    So part of our overall strategy has to be looking at 
working with our Mexican colleagues, reducing the supply that's 
coming from Mexico, and working at our border to intercept more 
heroin that's coming in.
    Mr. Grothman. You're telling me something new here, too. I 
was under the impression a lot of these poppies were growing in 
Afghanistan or worked over there. You're saying the whole thing 
is a Mexican thing, growing, produced, da-da-da-da-da, right up 
here, so it's a Mexican problem and probably another reason why 
we should be doing a lot better job than we currently are of 
locking down that southern border.
    Mr. Botticelli. Correct.
    Mr. Grothman. Okay. On the--how much prison time do you 
expect to get if you are--first of all, is it a Federal crime, 
possession of heroin? Is that a Federal crime or just a State 
crime?
    Mr. Botticelli. I believe it's a Federal crime.
    Mr. Grothman. You sure?
    Mr. Botticelli. I'm pretty sure. I could--yes.
    Mr. Grothman. Okay. It's a Federal----
    Mr. Botticelli. I am looking at my legal counsel who's 
telling me this.
    Mr. Grothman. If I am caught with enough heroin, which you 
know I am selling, which is kind of a small amount, but if I am 
caught with an amount of that, what type of prison sentence can 
I expect in a Federal court?
    Mr. Botticelli. I don't know the exact answer to that in 
terms of what you can expect, but what we do promote, 
Congressman, is that we know that many people who sell small 
amounts of a drug, largely to feed their own addiction, right, 
so these are not the folks who are preying on our community. 
But--so we want to make sure that those folks who are doing 
that activity, largely because of their own addiction, are 
getting good care and treatment. But, however, we want to make 
sure----
    Mr. Grothman. It's a little shocking that you don't know. I 
mean, to me, in Wisconsin, you know, we have money for 
treatment and da-da-da, but a frustrating thing is the cost of 
heroin is so low, and the reason the cost of heroin is so low 
is the people who are selling the heroin are not paying enough 
of a price, okay. I mean, heroin was around, like, in the 
1970s, but it wasn't so abused like it is today. Things are 
getting a lot worse.
    And I think one of reasons why the cost is going down is I 
am learning today, that I don't think you guys consider 
enforcement enough of a priority, and enforcement should be a 
priority. I mean, people are killing people. I believe right 
now, in the State of Wisconsin, more people are dying of heroin 
overdose than murder and automobile accidents combined. I think 
that's certainly true in individual counties. And something the 
Federal Government can do is to begin to make the cost of 
heroin go up a little bit.
    And I'm a little bit concerned, you know, that you guys are 
not, Oh, we can't, you know, prosecute our way out of this. 
Well, you got to try to prosecute your way out of it or the 
cost of heroin is not going to go up.
    Mr. Botticelli. So I will tell you, Congressman, that 
honestly, when we look at public health strategies to reduce 
other issues, decreasing the availability and increasing price 
has been a prime strategy, and that's part of our goal with 
heroin. Because of the cheap availability of heroin, that we 
know that that has prompted the dramatic increase, part of the 
dramatic increase in heroin.
    That's part of why we are focusing on domestically working 
on law enforcement to dismantle these organizations. That's why 
we continue to work with Mexico on reducing the supply, how we 
work with Customs and Border Protection to interdict more drugs 
that are coming in, because we know that there is this nexus 
between the supply of heroin in many communities and demand.
    You know, I will be the first to admit that while we need 
to continue to ramp up our demand reduction strategies, that 
needs to complement our demand reduction--or our supply 
reduction work. I would absolutely agree that we have to really 
look at how do we diminish the--both the supply of heroin and 
the trafficking organizations who are moving it.
    Mr. Grothman. Right. Good. I hope you do that sincerely, 
because I'm a little bit afraid to this point, you know, you're 
just throwing up your hands and saying all we're going to do is 
education or something or other.
    Mr. Meadows. Okay. The gentleman's time is expired.
    Mr. Grothman. Well, a little shorter than the last one, but 
that's okay.
    Mr. Meadows. The chair will recognize the gentleman from 
Missouri, Mr. Clay, for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman, and thank you--thank the 
witnesses for being here. Let me ask of Director Botticelli. 
You know, and let's stay on the subject of heroin addiction. We 
are in an epidemic that's afflicting Americans from every part 
of this country of every background, so reauthorization of your 
office is timely and urgent.
    I've heard you speak eloquently and powerfully about how 
treatment is one of the ways that we can reduce the 17,000 
deaths annually from prescription painkillers, and 8,000 deaths 
annually from heroin. And I have seen firsthand the value of 
life-saving and life-renewing services offered by community-
based nonprofits that provide residential treatment for 
substance use disorder.
    They provide the full continuum of care for addiction, from 
residential treatment to outpatient to aftercare support upon 
completion of their program that is essential to them staying 
clean and being a productive member of society. So it shouldn't 
be all about throw them in jail and lock them all up. I think 
this is a disease that needs to be treated.
    And I agree with Mr. Turner. Unfortunately, if you are 
poor, and you rely on Medicaid for your health care, which we 
know a lot of States have not expanded, under the ACA, there is 
an outmoded policy, over 50 years old, known as the Institution 
of Mental Diseases Exclusion, better known as the IMD 
exclusion, which bars Medicaid from paying for residential 
treatment at a facility of more than 16 beds. And The New York 
Times covered this extensively last year about how the IMD 
exclusion prevents people from accessing the intensive care 
they need as heroin addiction is surging.
    This yields a two-tiered healthcare system, where only 
people on Medicaid lose access to a kind of treatment that may 
be clinically indicated and medically necessary. I believe this 
is wrong, and it must be changed, and I want to join with my 
friend from Ohio, Mr. Turner, in trying to change that.
    Mr. Director, do you agree that people on Medicaid should 
have access to the same kind of treatment for substance use 
disorder of people who don't rely on Medicaid?
    Mr. Botticelli. Congressman, thank you for that. You know, 
one of the things that we know to be effective with dealing 
with substance use disorders is that people need to be 
connected to a continuum of care, and that residential 
rehabilitation, removing people from their environment, giving 
them new skills, getting them jobs, are particularly important 
for people's long-term success. So we want to make sure that 
people have access to the--that everybody has access to that 
continuum of care, not just people who can afford it out of 
their own pocket.
    I would agree with you that the administration has taken a 
look at the institute--IMD exclusion, and actually, Secretary 
Burwell just sent out a letter a number of months ago to State 
Medicaid directors basically saying that there are a number of 
levers that Medicaid can use to help support a continuum of 
care, but to also waiver from the current IMD exclusions.
    I know, as I've traveled around the country, I use to 
administer State-funded treatment programs that many of our 
programs are under significant demand right now, and that IMD 
exclusion can seriously limit the ability of our treatment 
programs to serve more people. So we should want to look at how 
do we expand treatment capacity, how can we ensure, 
particularly folks who are on Medicaid, have access to that 
care.
    The last thing that I'll mention is even in spite of the 
Affordable Care Act and Medicaid expansion in many States, that 
there are many people who remain uninsured, and I want to make 
sure that they have access to all of that care as well. So part 
of our goal at ONDCP in working with Congress is to ensure that 
our safety net funding, primarily through our Substance Abuse 
and Prevention and Treatment Block Grant, which every State 
gets, remains intact so that everybody has access to that full 
continuum of care.
    Mr. Clay. Yeah. And I'm glad to hear about the plan to 
approve waivers, but what happens in those States that don't 
seek waivers? Shouldn't this be a national policy?
    Mr. Botticelli. So we actually--through not only the 
Affordable Care Act, but through the implementation of the 
Mental Health Equity and Addiction Parity Act, I think really 
have to look at making sure that we treat addictions like we do 
any other chronic disease, and that we reimburse for those 
services like we do with any other chronic disease.
    So I think we need to use every tool in our toolbox, 
whether that's parity enforcement, the block grant, IMD, to 
make sure that people have access to care when they need it, 
not just because they can afford it. I'm sure you know, 
Congressman, that people who realize they need care often have 
to wait weeks before they get into care and often get very 
limited duration when they need long-term care and 
rehabilitation.
    Mr. Clay. Thank you for your response. My time is up. I'm 
sorry, Mr. Chairman.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
the gentleman from Georgia for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here. Gentlemen, as you can imagine, prescription 
drug abuse is very important to me. As a pharmacist and the 
only pharmacist in Congress, I have dealt with this, I've 
experienced it, I've lived it, I've seen it to--I've seen it 
ruining lives, I've seen it ruin families, and it's obviously 
very, very important to me.
    As a matter of fact, as a member of the Georgia State 
Senate, I sponsored Senate Bill 36, which created the 
prescription drug--monitoring program in the State of Georgia, 
something I'm very proud of.
    And Mr. Botticelli, I wanted to ask you, can you tell me 
what the National Drug Control Policy, what's your direct role 
in combating prescription drug abuse?
    Mr. Botticelli. So we play a prime role. We know to your--
first of all, sir, let me express my appreciation for you and 
your leadership on this issue, and particularly your focus on 
prescription drug monitoring programs, because that's been one 
of our prime goals is to ensure that every State has a robust 
prescription drug monitoring program.
    I'm happy to report that that was one of our main goals 
when we released our plan. When we started, we only had 20 
States that had prescription drug monitoring programs, and to 
date, we have 49. Part of our role is to make sure that those 
programs are, to the largest extent possible, adequately 
resourced. We know that having good real-time data 
availability, that sharing information becomes important.
    Mr. Carter. Let me--I don't mean to interrupt you, but let 
me ask you about that. How do you fund those? Through grants 
or----
    Mr. Botticelli. Sir, those are through grants through the 
Bureau of Justice system.
    Mr. Carter. And in those grants--because I remember when we 
set up our program, we weren't eligible for certain grants 
because we did not have certain programs within the 
prescription drug monitoring program that we needed, for 
instance, sharing information across State lines. I just 
couldn't get the bill passed at that time with that included in 
it, which it made us noneligible for those type of grants.
    Mr. Botticelli. To my knowledge, I don't know, but I'd be 
happy to work with you, Congressman, if there are additional 
eligibility requirements, that you feel like our--become a 
burden in terms of States not being able to have access to 
the--to those bills----
    Mr. Carter. Right.
    Mr. Botticelli. --I'd be happy to work with you.
    Mr. Carter. Right. Well, certainly, you know, that's an 
important element, and my hope is that we can get that changed 
in the State to where we can share information, because that's 
important.
    For instance, I practiced right on the Georgia/South 
Carolina line and the Georgia/Florida line, so I'd get 
prescriptions quite often--or I used to practice. I get 
prescriptions quite often from those States and need that 
information as well.
    I want to switch real quickly. Mr. Maurer, you mentioned a 
while ago, and I took some interest in this, because I know 
that in the legalization of marijuana, and the 
decriminalization of marijuana, I suspect that that's had an 
impact, and I was wondering if you've done any studies. I've 
always viewed marijuana, and full disclosure, I am adamantly 
opposed to the decriminalization, or to the legalization of 
marijuana.
    I am a practicing pharmacist for over 33 years. I have 
spent my career using medication to improve people's health, 
and so it is just a pet peeve of mine. But nevertheless, what I 
want to know is, in those States that have legalized, that have 
or decriminalized it, had--I've always viewed it as being a 
gateway drug. Has--have we seen a decrease or an increase or 
any impact at all in other drug use in those particular States?
    Mr. Maurer. We currently have a report that's going through 
final processing right now looking at part of that issue. It 
will be issued at the end of this month. It's looking at the 
experiences in Washington and the State of Colorado, and more 
specifically, what the Department of Justice is doing or not 
doing in those States involving their use of marijuana. That 
report may address some of your questions.
    In terms of preparing for today's hearing, we don't--I 
don't have any specific information in response to your 
question, but it's right on point, and I think it's an 
important issue that needs to be addressed. We need to get that 
information and help inform the policy debate.
    Mr. Carter. Right. Another point that was brought up during 
this conversation I have found very interesting. We've done 
quite a bit of criminal justice reform in the State of Georgia, 
and we've talked about it here in Congress, and certainly 
having programs in our prison system, because our prisons are 
full of people who are in there for drug abuse problems and 
drug--illegal drug use, and we need to have programs in our 
prison system that are going to treat them because it is a 
disease. I can tell you, as a professional, it is a disease, 
and it's something that needs treatment.
    What are we doing to help in the prison system, to help 
with those type of programs?
    Mr. Maurer. In the Federal system, which is what I'm 
familiar with, inmates are eligible for residential drug 
treatment programs, if they are--if they have come into prison 
with an addiction, and they can get that treatment and they can 
get reductions in their sentences if they successfully complete 
the program.
    Mr. Carter. But--so it's voluntary?
    Mr. Maurer. Yes.
    Mr. Carter. It's not required. Why aren't they required?
    Mr. Maurer. Why aren't they required?
    Mr. Carter. Yeah. Why aren't they required--if you go into 
prison for drug abuse or drug dependency, why aren't you 
required to go through therapy?
    Mr. Maurer. I think that's a great question to ask the 
Bureau of Prisons. In the legislation, the ability to have 
inmates to have their sentences reduced creates a pretty strong 
incentive for them, and I know that for a number of years, BOP, 
Bureau of Prisons didn't have adequate resources to meet the 
demand for that program. They've since made a lot of progress 
in addressing that particular issue.
    So I can't speak to whether every single inmate who goes 
into the Federal system actually gets treatment. I do know that 
many inmates want to get that treatment program, both to 
address their addiction as well as to get out sooner.
    Mr. Carter. Well, many inmates may want to get that 
treatment program, but I suspect that all citizens want them to 
get it. I can assure of you that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
the gentleman from Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman, and I want to thank the 
witnesses for your excellent testimony.
    Full disclosure. Mike Botticelli is a pal of mine and used 
to run the Substance Abuse Bureau in Massachusetts, and Mr. 
Kelley, my district is a high-intensity drug trafficking area, 
and Mr. Kelley has been a frequent flier to my district in 
trying to address the problem there.
    Most pointedly, we've had a critical situation in 
Massachusetts in my district, as well as other parts of the 
State, and maybe--maybe just explaining that will offer some 
value to what the office of National Drug Control Policy 
actually does.
    We have had a pernicious problem with heroin coming into my 
district from Mexico, and it was through Director Botticelli's 
help that we sort of figured--figured all this out, but it's 
coming out of Mexico and Colombia. The earlier drug trafficking 
network was through the Dominican Republican. We had a lot of 
Dominican gangs that were providing that, as Mr. Kelley had 
informed us. But between the office of the National Drug 
Control Policy and HIDTA, we were able to bring in resources 
from--now, remember, we are dealing with a system that is--
we've got local towns, cities, counties, the State, now the--
one of the hot areas was Providence, Rhode Island, so we're 
dealing with Rhode Island as well, and then, of course, we're 
dealing with the Mexican border and the Mexican Government.
    So ONDCP actually pulls all that together so we can get all 
these resources. They brought--I had a number of homicides in 
my district that were, that have the population in full alarm, 
brutal, brutal murders, and directly tied to the drug trade. 
And so ONDCP did a remarkable job. And I just--you know, from 
member to member and how you deal with this in your district, 
ONDCP is a very, very important part of that. And that's--
that's how we bring all these resources together, which are 
scarce.
    I do want to express support for Mr. Turner's idea about 
maybe accessing SAMHSA, but they're short-funded on that end as 
well, as Director Botticelli pointed out, but maybe we could do 
something on a pilot program where county prisons or State 
prisons might identify a certain program in a certain area like 
Dayton, Ohio or like Gloucester, Massachusetts where we're 
trying some innovative stuff here to deal with the inmate--or 
potential inmate population.
    So I just appreciate the work that you all have been doing, 
and thank you, Mr. Maurer, for your testimony as well.
    I want to just back up a little bit because one of the--one 
of the problems that I see on a day-to-day basis, and I'm 
dealing with it. I'm up to my neck in this stuff in my 
district, is the power of oxycodone, and I've got--I could tell 
you some horror stories about, you know, young people that 
we've been dealing with that, you know, one young woman and had 
a tooth extraction and got a prescription of OxyContin, and 
then she falsely--she tells me now she falsely claimed a 
persistent tooth pain, got another prescription of OxyContin. 
Two scrips later, she's fully, fully addicted, and then she 
started complaining about other teeth, having other 
extractions. So this young woman was having teeth pulled out of 
her head just to get the OxyContin.
    Now, when people are doing that, it tells you that this is 
a very powerful, powerful drug, and because of the tolerance 
that--what it does to the brain and because of the tolerance 
that develops and resistance that develops, greater dosages are 
needed. So using that as just one example, and I can give you a 
bunch more, why is it that we're allowing drug companies to 
produce these powerful, powerful drugs that--by which they are 
building a customer base for life. By getting people on this 
OxyContin, it is--it's overloading their brains, and it's 
just--it's grabbing them, and there's a commercial advantage to 
producing customers for life.
    If you can get these people hooked, you've got them 
forever, they can't get off this. So, you know--and now the 
FDA, God bless them, but they just expanded the use to 
children, and so it seems like we're not--we're not all rowing 
in the same direction here. I actually--when I was first 
dealing with it, I actually filed a bill to ban OxyContin, and 
there were more lawyers and lobbyists all over me on that. I 
didn't have a prayer.
    So how--what is it that we could do to sort of look again 
at the substance that we're allowing people to sell out there. 
And I'm not against pain management, but this is ridiculous. 
We're overmedicated. You know, we've got--you know, it's just 
off the charts in terms of the opioids that we're putting out 
in the street. How do we address that issue?
    Mr. Meadows. If you could briefly respond, sure.
    Mr. Botticelli. Thank you, Congressman. So to your point, 
we are prescribing enough prescription pain medication in the 
United States to give every adult American their own bottle of 
pain pills. We all want a balanced approach here, making sure 
people have access to these lifesaving medications for those 
who need it.
    You know, we continue to work with the FDA to promote abuse 
deterrent formulations, but one of the areas where we haven't 
made enough progress, and we'd love to work with Congress on 
this, is ensuring that every prescriber has a minimal amount of 
education around safe and opiate--safe and effective opiate 
prescribing. That's why we're really thrilled with the New 
England HIDTA in promoting--because that is often the place 
where it starts, right.
    So I'm sure this dentist was--thought he was very well 
intended in treating someone's pain. I would assume that they 
got little to no training on pain prescribing, on identifying 
addictive behavior. So we've got to work on all fronts, not 
only on making sure that we make these medications more abuse 
deterrent, but also that we're stopping this overprescribing 
that we see throughout the country. It's really critical for us 
to rein in the prescriptions of this, and that critical point, 
Congressman, is often with a doctor/patient relationship.
    Mr. Lynch. I thank the chairman's indulgence. Thank you. 
Appreciate it.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
himself for a series of questions.
    Let me be real brief in terms of the introduction. I think 
we have a bipartisan agreement that this is something that we 
need to address. The question for me becomes is with the 
reauthorization, and some of the suggestions that have been 
made in that is that the appropriate place and money funding.
    I can tell you that I started a nonprofit with a very good 
friend of mine who lost his grandson, and there is a cycle 
within that family of drug abuse. And so we went in and 
developed a nonprofit to work on the prevention side of things. 
And so this is something that's near and dear to my heart, but 
I want to--I want to go a little bit closer because I think 
this is all about coordination.
    Mr. Maurer talked about it early on, that there is 
virtually little, if no coordination, among some of the 
agencies, and yet we spend billions of dollars. Mr. Kelley, you 
were talking increasing the authorization amount. I'm willing 
to really look at that to make sure that you have the resources 
necessary, but as we look at these caps, I want to make sure 
that we're not taking away from HIDTA, which I consider more of 
a law enforcement component, and spending the money on 
prevention and treatment when it would be better allocated in a 
different agency that already does prevention and treatment, 
okay.
    And I think you're following where I'm going with this is 
because it gets back to the mission creep. So let me ask my 
tougher question to you, first, Director, and that is, is in 
the reauthorization language, there is talk about getting rid 
of the new performance reporting system. Why?
    Mr. Botticelli. So one of the things that we've looked at, 
as we've undertaken our reorganization, is how do we achieve 
greater efficiency within our organization to really focus on 
our main goals and our main mission here. And one of the things 
that we've looked at--and we are fully cognizant of our role, 
both to ourselves as an agency, to Congress, and to the 
American people, that we monitor performance, that we are--
that----
    Mr. Meadows. But you came up with this new development 
performance system. Why get rid of it? Just cut to the chase. 
How do we--why are you getting rid of it?
    Mr. Botticelli. So part of what we're trying to do is 
achieve greater efficiency within our organization.
    Mr. Meadows. So how do you do that by getting rid of an 
evaluation program?
    Mr. Botticelli. Because what we've looked at is through the 
existing--we do have existing mechanisms within our current 
administration that monitors performance.
    Mr. Meadows. So who made the mistake of doing the new 
performance----
    Mr. Botticelli. I think----
    Mr. Meadows. Because you created a new one, and then you're 
doing away with it, and I don't understand why we would do 
that.
    Mr. Botticelli. So I want to be clear and up front that 
there were elements of the performance review summary that 
helped in our ability to continue to monitor performance.
    Mr. Meadows. All right. Let me be clear and up front. I 
want you to work with GAO to keep the system of performance 
review in place. Make it meaningful, make it measured, because 
the appearance--and I just got finished saying that I'm willing 
to look at increasing the authorization and renewing it, but 
the appearance is, is that you didn't meet your performance 
standard, and you got rid of the program, and that's not 
satisfactory.
    And so, do I have your commitment today to work with Mr. 
Maurer and the folks at GAO to make that meaningful and put 
that back in?
    Mr. Botticelli. I will be happy to work with you because I 
do want to assure you----
    Mr. Meadows. With GAO.
    Mr. Botticelli. And with GAO.
    Mr. Meadows. Okay.
    Mr. Botticelli. That we satisfy your request to make sure 
that we are monitoring and that we are----
    Mr. Meadows. Performance is all about it, and if we are 
spending billions of dollars, and we are not getting what we 
need, then we need to reallocate those funds, okay?
    So if you could put up the chart, and this gets back to how 
I opened up a little bit. This actually--I believe this chart 
is one that comes from the performance fiscal year 2014 or 
2016, excuse me, budget and performance summary that was 
produced by your group, ONDCP.
    So we can see there that prevention and treatment across 
agencies is substantially higher already. You know, I guess 
that's $11 billion is where that would be. And so some of the 
wonderful programs that have been talked about today that 
actually I've taken advantage of and used with grants and some 
of those are actually working in treatment and prevention, and 
you drop down to the next group, that's domestic law 
enforcement.
    So let me--let me be specific, knowing that you have a 
willing participant here to help you with the reauthorization. 
I am very concerned that we're taking HIDTA, and we're making 
them a treatment and prevention group when we're already 
spending $11 billion in other agencies to do that, when just 
better coordination, as Mr. Maurer with GAO has already 
mentioned, would actually address that.
    So what I'd like us to do is relook at that, if we can, and 
look at--and if we're not meeting the 5 percent cap, you know, 
and the gentlewoman from the District of Columbia and the 
gentleman from Maryland had both talked about how that 
treatment component with HIDTA is effective, but yet we're 
still not meeting the 5 percent cap that's in pro, what I want 
to do is make sure that we're allocating the money with the 
proper agency to perform those functions, and not making a law 
enforcement officer do treatment and prevention, because I want 
to give him the tools to refer, but they are not in the 
treatment and prevention business, they are in the law 
enforcement business. And when you do that, it is very 
concerning. Will you agree with that?
    Mr. Botticelli. I would agree. You know, one of the things 
that I do want to point to is that despite the fact that we 
have significant funding and increased funding for prevention 
and treatment, we know we have gaps in many parts of the 
country.
    Mr. Meadows. I will agree with that, but is HIDTA the best 
place to do that? Because I can tell you, my bias is that it's 
not. You can sell me. I'm waiting to hear.
    Mr. Botticelli. No. So one of the things we do work with 
the HIDTA program on is making sure that if they are investing 
dollars in prevention and treatment, that they go toward 
evidence-based programs, right.
    Mr. Meadows. I understand that, but let me tell you, I've 
got a HIDTA program in three counties, and that is McDowell, 
Buncombe, and Henderson County in my district, and the only 
common thread there is transportation. You know, we're looking 
at main corridors coming from the south. I mean, and--and to do 
away with money from the HIDTA program there is not addressing 
the treatment or prevention aspect, because it is all about 
transportation, and that goes from a--both a Democrat and 
Republican sheriff that are working in those counties. They 
work better together, and to reduce their funds concerns me. So 
you follow my logic?
    Mr. Botticelli. So I appreciate your comments on this, and 
let me just reiterate that, you know, our purpose here with the 
language was, in no way, shape, or form, to dilute the main 
mission of our HIDTA program.
    Mr. Meadows. I believe that.
    Mr. Botticelli. Okay.
    Mr. Meadows. But what I'm saying is, is it could do that if 
we go that way. So will you readdress the reauthorizing 
language with that in mind and my bias, and I'll give you, 
after this time, because I need to go on to my other 
colleagues.
    Mr. Botticelli. Sure.
    Mr. Meadows. You can try to sell me.
    Mr. Botticelli. I think we can, and I think one of the 
things that we can work on is maybe establishing better 
criteria for--as we look at the----
    Mr. Meadows. So let me put it bluntly. Will my sheriffs 
agree that we need to increase the amount of money going to 
treatment and prevention in HIDTA and go away from them? Would 
they agree with that?
    Mr. Botticelli. I honestly don't know what the locals are 
saying.
    Mr. Meadows. Okay.
    Mr. Botticelli. As long--but I will say that they probably 
would object, and we would object if that dilutes from their 
main mission.
    Mr. Meadows. If they object, we're going to have an issue, 
and I'll go to this----
    Mr. Botticelli. And probably on the HIDTA board.
    Mr. Meadows. Yeah. I'll go to the gentlewoman from the 
Virgin Islands, Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you very much, and good morning, 
gentlemen. Thank you for the work that you do. You know, I am 
so incredibly appreciative of everything that you all are 
putting forward in your testimony, your thoughtfulness. My 
first job out of law school was a narcotics prosecutor in the 
Bronx, so I understand this completely and the importance of 
the work that you do.
    As a Member of Congress representing the United States 
Virgin Islands, I very much strongly support the bipartisan 
effort of reauthorizing the Office of National Drug Control 
Policy. I see how important it is, not only for our Nation in 
terms of treatment, but preventative as well in terms of 
stopping the flow of drugs in and out of this country and its 
transportation throughout.
    For years, the otherwise peaceful communities in the U.S. 
Virgin Islands have been experiencing elevated levels of crime 
and violence. Much of it is related to our economy, and that 
economy has, in turn, moved tremendously to a growth in illegal 
drug trade. And we are very grateful for HIDTA's presence in 
the Virgin Islands, and would be in favor of increased presence 
in the Virgin Islands in Puerto Rico, because we are aware that 
much of the traffic of drugs that's coming into the mainland is 
coming through the Caribbean corridor, which many people are 
not aware of how much drugs are coming into this country 
through such a small area of the United States.
    And so you can imagine, if it's coming through such a small 
and porous border in this small community, the effect, the 
tremendous effect it's having on the people that live there, 
neighborhoods, individuals completely afraid to go out not only 
at night, but now even during the day where we're having drug 
wars and shootings occurring, not even blocks away from schools 
in the middle of the day in this community.
    And although a significant effort has been made in recent 
years to secure additional Federal attention and resources to 
address drug trafficking through the U.S. territories in the 
Caribbean, in our opinion, much remains to be done to help stem 
the flow of drugs and related crime, as well as to diminish the 
negative impact of drug abuse in the communities across the 
United States, Virgin Islands, and Puerto Rico.
    Now, in response to a congressional directive earlier this 
year, ONDCP took a major step forward in helping to promote a 
well-coordinated Federal response to those issues by publishing 
the first ever Caribbean border counternarcotic strategy. And I 
would ask you, Director Botticelli, as well as Mr. Kelley, as 
to whether or not you believe that explicitly including the 
U.S. Virgin Islands and Puerto Rico and statutory mission of 
ONDCP would help ensure that drug-related issues facing the 
American's Caribbean border are fully included in aspects of 
your work.
    Because we're so small in numbers, in population, people 
are unaware that almost 40 percent of the drugs that come into 
this country come through those two areas.
    Mr. Botticelli. Thank you, Congresswoman, for your question 
and for your concern. We share your concern in terms of look at 
trafficking and increasing crime in Puerto Rico and the U.S. 
Virgin Islands. To do that, we have seen an increased flow in 
the Caribbean as it relates to some of the drug flows, so we 
share your concern, and we're happy to comply--to produce the 
2015 Caribbean counternarcotic strategy, which addresses a wide 
range of issues.
    We are actually going to be convening all of the relevant 
stakeholders in early 2016 to review our progress against our 
goals and ambitions for this, and have every intent, going 
forward, to include specific action items in our strategy, 
going forward, that address the Caribbean and U.S. Virgin 
Islands. It will continue to be a priority.
    Ms. Plaskett. I will work as closely and be as supportive 
of you as possible in that. You know, our families and our 
elders, our children really need your support at this time.
    Mr. Botticelli. Thank you.
    Ms. Plaskett. Mr. Kelley, do you have any thoughts? I 
visited HIDTA's--the group in Puerto Rico about a month ago, 
was impressed by the work that they're doing, have been 
speaking with even our Coast Guard, who is doing quite a bit of 
that work as well, and would like to get your thoughts on this.
    Mr. Kelley. Thank you, Congresswoman. In fact, you've 
struck a number of points that I've written down that are very 
germane. The HIDTA program has been intimately involved with 
the Caribbean, not only through our HIDTA program that's there 
presently, but we, on a monthly basis, we have a conference 
call, sometimes attended as many as 90 people on the conference 
call, and it's the Caribbean intelligence conference call where 
members of not only ONDCP, but all the Federal agencies here in 
the United States to talk about the transportation of drugs and 
the sharing of intelligence, and we've made some great, great 
progress. So much so that it has been a repetitive--a 
repetitive conference call and will continue to do that.
    To your point on including in the reauthorization and the 
type of border strategy, I think it's very, very important, as 
we look at the drug issues here in this country, that we not 
only have to look inward, but we have to insulate ourselves 
from the outside, and whether it's a northern border strategy 
or southwest border strategy, or Caribbean border strategy, 
that is the transportation corridors where these drugs are 
invading our community.
    So it makes perfect sense to me, and I think to ONDCP, or 
with the strategy that just came out, that the Caribbean is a 
very, very important partner in this issue of reducing the 
supply that comes from elsewhere in the world, and we know that 
we have to take greater strides in protecting not only the 
people of the Caribbean and those nations and those 
territories, but to prevent the transportation of drugs through 
there to make that a no-go zone for these drug trafficking 
organizations.
    Ms. Plaskett. Thank you very much, gentlemen. Thank you, 
Mr. Chair. I'm going to be so impressed with working with you 
all in that, but know that, you know, I'll be on you. I'll be 
watching.
    Mr. Kelley. Thank you.
    Mr. Meadows. I thank the gentlewoman, and before I 
recognize the gentlewoman from New York, Mr. Director, could 
you--why are you requesting 22 percent less for the HIDTA 
program?
    Mr. Botticelli. So the--part of the challenge----
    Mr. Meadows. You were just talking about what a good job 
they do, so you punish them by reducing their budget by 22 
percent?
    Mr. Botticelli. Again, you know, it's not reflective of 
what our value of the HIDTA program is. I think you know in the 
current----
    Mr. Meadows. My wife was a waitress. She said appreciation 
is green.
    Mr. Botticelli. I know.
    Mr. Meadows. So what's it reflective of?
    Mr. Botticelli. I think it's just a reflection of some 
challenging priorities that the President's budget has.
    Mr. Meadows. So where did the other money go? Can you get 
that to the committee?
    Mr. Botticelli. I could get that to the committee.
    Mr. Meadows. Because I'm concerned.
    Mr. Botticelli. Sure.
    Mr. Meadows. And I'll recognize the gentlewoman from New 
York, Mrs. Maloney, for 5 minutes, and a gracious 5 minutes.
    Mrs. Maloney. Okay. Thank you very much and thank you for 
this hearing, all of your testimony, and I join this chairman 
in really underscoring that you should not be eliminating 
review processes, but strengthening them, and certainly, 
knowing the problem that we haven't, we shouldn't be reducing 
what we're spending, but we should be maintaining it, hopefully 
growing on it.
    But I want to go back to the conversations we've been 
having on opiates, that they've been prescribed very deeply and 
strongly and the increase of prescriptions for it. Are you 
tracking whether the prescriptions are coming from doctors or 
are there illegal prescriptions?
    Mr. Botticelli. As we look at data, the vast majority of 
prescription pain medications that are coming into the supply 
are coming from legitimate prescriptions. So we only see a 
small percentage that are coming from pharmacy--Internet sales 
or street level purchases. Seventy percent of people who start 
misusing prescription pain medication get them free from 
friends and family, who often got those from just one doctor.
    But we know as people progress, they often do move from 
doctor to doctor, but that really comprises a very little 
proportion of overall prescription pain medication in the 
supply. So we know if we're going to deal with this issue that 
we've got to diminish the prescription pain medication.
    Mrs. Maloney. And also there are reports that people on 
opiates then become addicted to heroin. Have you been tracking 
that? Apparently heroin is cheaper than the opiates. Is that in 
your database, one of the questions you ask, were you on an 
opiate before you went to heroin? And then often heroin goes to 
crime. So----
    Mr. Botticelli. So we know that about 80 percent of people, 
newer users to heroin, started misusing prescription pain 
medication, because they're both opiates and they act the same 
way in the brain. We do know, however, that when you look at 
heroin use, it's much, much lower as a percentage of use than 
prescription drug misuse.
    So we know that it appears that only a small percentage of 
people are progressing from prescription drug misuse to heroin. 
However, because of the magnitude of the prescription drug 
issue, that has led to a really significant increase in the 
number of people who are using heroin.
    Mrs. Maloney. Well, is there any punishment to doctors that 
abuse these opiates? I thought the example from Congressman 
Lynch was astonishing, that the woman had teeth pulled out of 
her head to get pain medicine. Obviously the doctor was 
incompetent if he was pulling out of her head teeth that did 
not deserve to be extracted. And so what is the punishment for 
a doctor for prescribing pain killers or any medicine 
inappropriately?
    Mr. Botticelli. So I think we have to distinguish between 
those physicians and dentists who are prescribing who are well 
intended, who are not doing it with a malice of intent, versus 
dealing with those physicians who are just doing this as a huge 
cash business. And we've seen that in many parts of the 
country.
    Mrs. Maloney. How is it a huge cash business? They just get 
money for prescribing the drug?
    Mr. Botticelli. So let me give you a very telling example. 
In one county in Florida, because of lax laws and because they 
didn't have a prescription drug monitoring program, 50 of the 
top 100 prescribers were in one county in Florida. And working 
with the DEA, working with the police, working with the 
prescription drug monitoring program, we were able to enact 
laws and reduce these huge pill mills that we saw that were 
often a for-cash business. So law enforcement and reducing 
those pill mills become a prime strategy for us.
    But we've also been working with the Federation of State 
Medical Boards, who have oversight and disciplinary action as 
it relates to physicians who are clearly outside of the range 
of appropriate prescribing, because, you know, taking 
disciplinary action against those physicians and other 
prescribers who are clearly outside the bounds of what normal 
prescribing behavior would be needs to be part of our overall 
strategy.
    Mrs. Maloney. And my time is almost up, but I did want to 
ask you, I guess Mr. Maurer, about the GAO released report on 
ONDCP's coordination efforts of drug abuse prevention. The 
report identified an overlap in 59 of the 76 programs included 
in the GAO's review. And what is the possible impact of this 
overlap and why did you raise that in your report?
    Mr. Maurer. Sure. This was a report we issued back in 2013. 
At that time, we found overlap. And what we meant by that was 
that there were disparate programs that could potentially be 
providing grant funding to the same grant recipient and they 
wouldn't necessarily know, so the right hand wouldn't 
necessarily know what the left hand was doing.
    The good news on that is we issued our findings, we made 
recommendations to ONDCP to take a look across this universe of 
programs. They have done that, they've identified the need for 
greater coordination, they put mechanisms in place to improve 
that coordination, they've addressed that recommendation, and 
we have since closed it as implemented.
    Mrs. Maloney. That's a very fine success.
    My time has expired. Thank you.
    Mr. Maurer. Thank you.
    Mr. Meadows. I thank the gentlewoman.
    Just so you will know, we are going to do a very, very 
limited second round, and by very limited, we're going to--I'm 
going to recognize the gentleman from Wisconsin for 4 minutes, 
a strict 4 minutes, and then we're going to recognize Ms. 
Norton for a strict 4 minutes, and then do closing remarks.
    The gentleman from Wisconsin is recognized for 4 minutes.
    Mr. Grothman. Okay. So I had to come back, because I kind 
of thought it was a rhetorical question as to whether 
possession of heroin was a Federal crime. But what is the 
expected prison term you get if you have enough heroin with you 
that you're probably some sort of dealer? Do you know what you 
guys ask for?
    Maybe I'll ask Mr. Maurer. What is the standard as you 
prosecute it locally? What do the Federal prosecutors ask for?
    Mr. Maurer. I don't know what the standard sentence is. I 
do know that there are a lot of factors that go into 
sentencing. Mandatory minimums would weigh large in this 
particular case, depending on the amount of heroin.
    Mr. Grothman. Is there a mandatory minimum if I have enough 
heroin that I apparently am not using it for personal use?
    Mr. Maurer. It's a function of prosecutorial discretion and 
what actions they chose to take, but there are mandatory 
minimums associated with heroin. I don't know what those are, 
though.
    Mr. Grothman. Okay. Do you know how many people are in 
Federal prison for selling heroin?
    Mr. Maurer. I don't know how many are in Federal prison. I 
do know that well over half of the current Federal inmate 
population is serving a sentence that's predominantly based on 
drug possession or drug trafficking.
    Mr. Grothman. Okay, the reason I say is to me there's a big 
difference between heroin and other drugs, okay. I mean, 
nobody--I'm for marijuana being illegal, but there's nobody, 
you know, dying of a marijuana overdose. This heroin thing is a 
whole new thing, you know, much worse than the cocaine thing, 
much worse than anything, and that's why I don't like it kind 
of blended with the other things.
    But do you know how many prosecutions for heroin, heroin 
either possession or selling it every year?
    Mr. Maurer. I do not know.
    Mr. Grothman. Okay. I want you to get me those things.
    Mr. Grothman. And I think it's important for you three, who 
are after all supposed to be the Federal people out in front 
fighting the heroin, to familiarize yourself a little bit about 
what's going on in the criminal Federal courts dealing with 
heroin. I mean, I'm asking you these questions. I thought you'd 
give me answers, and you don't know the answers.
    Mr. Maurer. We'd be happy to work with our colleagues in 
the executive branch----
    Mr. Grothman. You should know the answers. You've got 
important jobs. And I'm glad you're going to get the answers, 
but I think if you had your job, I'd know the answers.
    But, okay, I guess we'll ask you some more questions later 
when you have to time get the answer. I'll give you one more 
question, though, which is an entirely unrelated thing, but 
kind of a follow-up.
    One of the problems we have is that there are physicians 
out there who are clearly selling prescriptions for opiates 
that they shouldn't be selling. Another problem, to me, is we 
have physicians prescribing more opiates than you would 
traditionally need. You know, somebody goes in for a root canal 
and instead of giving you a prescription for 3 days, they give 
you a prescription for a month.
    Do you want to comment on that and why that practice has 
taken hold?
    Mr. Botticelli. Sure. We would completely agree with you 
that not only are we overprescribing, but in many instances 
people who need only a limited duration of pain medication are 
getting up to 30- and 60-day doses of that.
    Part of what we've been focusing on, not only in terms of 
our prescriber training, but the Health and Human Services is 
in the process now of developing clear and consistent clinical 
guidelines as it relates to the prescribing of pain medication 
for these exact purposes of not only appropriate prescribing, 
but also not overprescribing the amount of medications that are 
given out in many instances.
    Mr. Grothman. I'd only just say it's a Federal business, 
but since so many of the prescriptions today I suppose are paid 
for Medicare or Medicaid, do you think it would be Federal 
guidelines on the appropriate amount of opiate prescriptions 
paid for in these two programs?
    Mr. Botticelli. You know, one of the issues that we're 
particularly looking at with our Medicaid programs is not only 
the implementation of these clinical standards to looking at, 
but also continuing to focus on what we call lock-in programs, 
to ensure that people who might be going to multiple physicians 
or multiple pharmacies are locked into one physician and one 
pharmacy.
    So we're looking at a wide variety of mechanisms, both 
within our Medicare and Medicaid programs, to look at how we 
might diminish the scope and the associated costs with 
prescription drug use in both of those programs.
    Mr. Meadows. Thank you. The gentleman's time has expired.
    The gentlewoman from the District of Columbia is recognized 
for 4 minutes.
    Ms. Norton. I certainly appreciate the chairman's 
indulgence.
    I really felt I had to ask you a question on synthetic 
drugs. And I want to say the chairman mentioned that his 
sheriffs wouldn't want you to take away from law enforcement 
function. I would agree with you. My police chief wouldn't want 
it either, especially in light of the fact that I think you 
took down 19,000-plus packets of synthetic drugs only recently 
here in the District of Columbia, and I think it was your very 
HIDTA law enforcement that did it. It made big news here.
    These synthetic drugs present a new challenge. I want to 
know how you're handling it. We've had in October alone 
emergency services were called 580 times, more than 18 times a 
day, to respond to synthetic drug emergencies. Here we have 
bipartisan legislation that has been introduced. I'm not sure 
any of it can be found to be constitutional, because unlike 
heroin, which is what it is, for example, they change the 
composition.
    Are you pursuing synthetic drugs? In light of the fact that 
a criminal statute cannot be overly broad or it violates due 
process, do you have the tools to do your law enforcement work 
with what is now a growing menace across the United States? My 
Republican members who have this problem, for example, on the 
bills, come from Texas and Pennsylvania.
    Mr. Botticelli.
    Mr. Botticelli. Thank you, Congresswoman. I'm glad I have 
the opportunity to talk about synthetics. And while we've been 
talking about the opiate addiction, you know, one of our prime 
concerns has been the dramatic increase in these new 
psychoactive substances. Both in terms of my job and as a 
resident of the District, I've seen the incredible impact that 
it's had.
    You know, we have working with our counterparts in China, 
because we know that the vast majority of these precursor 
chemicals are coming in from China. We're happy to say that 
China just moved to schedule over 100 of these substances.
    One of the areas, to your point, about how do we stay ahead 
of these new chemical compositions has been a challenge for us 
at both the Federal and State level. We're happy to work with 
Congress in terms of the legislation that's been introduced 
that would give Federal Government additional and quicker 
scheduling authority----
    Ms. Norton. You do need, as China is doing new legislation, 
you do need new legislation to be able to do effective law 
enforcement?
    Mr. Botticelli. I believe that we have not been able to 
stay ahead of these new chemical compositions and we need to 
look at----
    Ms. Norton. I have one more question before my time is up. 
I know that four States and the District of Columbia have 
legalized possession of small amounts of marijuana. The other 
four, of course, have legalized sale as well. In D.C., they are 
sending our people to the illegal market, because you can't 
get--do the sale.
    How much of your work goes for marijuana in light of the 
fact that this drug is increasingly--you have 20 States that 
have decriminalized it. Are you really spending resources on 
marijuana, particularly in light of the fact that in terms of 
the white, black, again, getting into what happened with 
mandatory minimums, the arrest records are almost entirely 
black or Latino, because the white kids are not in, I suppose, 
the law enforcement areas and don't get picked up. In light of 
that racial disparity, how much of your funds for law 
enforcement goes for marijuana, which is being legalized before 
your very eyes?
    Mr. Botticelli. So I could get you an exact breakdown in 
terms of where our law enforcement efforts, but I----
    Ms. Norton. Can you send the chairman of this committee a 
breakdown in terms of----
    Mr. Botticelli. Sure.
    Ms. Norton. Mr. Kelley has a breakdown.
    Mr. Kelley. No. I was going to address one other issue that 
you raised, if I may, if the chairman allows.
    Ms. Norton. Well, excuse me. Could this question be 
answered, Mr. Botticelli?
    Mr. Botticelli. I'd be happy to do that. But I think to 
your point, you know, the vast majority of the resources that 
ONDCP and the Federal Government looks at are really for 
enhanced prevention and treatment programs. You know, we 
don't--and I think the Federal Government and the Department of 
Justice has issued guidance saying that we are not going to be 
using our limited Federal resources to focus on low-level folks 
who are using this for largely personal use. I think you've 
heard today that folks want to use every opportunity to divert 
people away from the criminal justice system.
    But I do have concerns based on the data that we shared 
here in terms of marijuana use what the implications of both 
decriminalization and legalization mean for the people of the 
United States. I've been doing public health work for a long 
time. We know there are disproportionate health impacts, 
particularly with poor folks----
    Ms. Norton. Well, I support those studies, especially when 
it comes to children. Of course, we know that most people don't 
smoke marijuana once they leave college.
    Mr. Meadows. Mr. Kelley, we'll give you some latitude to 
make that last comment, then we'll close up.
    Mr. Kelley. Thank you, Mr. Chairman.
    Congresswoman, I just wanted to bring your attention--for 
the record, I would certainly in the Washington-Baltimore 
HIDTA, which is in your district, I would certainly invite 
you--in fact, I spoke to the Director prior to coming down 
here, knowing that this is a prevalent issue here--I would 
invite you, that he would be able to speak to you at any time 
that you wish.
    I also have with me a threat assessment that was done on 
synthetics in this very area and a number of recommendations, 
which I'll be glad to share with you.
    Mr. Kelley. That was developed by the Washington-Baltimore 
HIDTA in their initiatives that they're working very closely 
with the chief of police, who sits on their board, to address 
these very issues.
    Mr. Meadows. Thank you, Mr. Kelley.
    And I'd just like to thank all of you for your testimony, 
for your indulgence. It's been a very insightful hearing.
    I want to--Director, we have a number of to-do items for 
you to get back.
    It is critical, because as we look for reauthorization, as 
we get back into a normal budgeting process, a normal 
appropriations process, some of these have been appropriated 
without reauthorizing, as you know. Those days are growing 
fewer in number, and so it is more critical that we look at 
reauthorization, but look at meaningful budget numbers too.
    I am extremely troubled, based on the testimony today, that 
your request is to cut a program. Now, if it's not working, cut 
it all out, but that's not what I heard from you. And then yet 
we're taking a program that what my local law enforcement 
officers say works with them, it's a critical tool, and we're 
somehow wanting to give greater flexibility--it appears that 
we're wanting to shift the money into prevention and treatment 
and ultimately do away with HIDTA. And you're going to meet 
great resistance in a bipartisan way here, I think, if that's 
truly the direction. And I don't want to put words in your 
mouth. You're very eloquent with your words.
    So I just want to say thank you all for your time. I think 
we can make real good progress here working through. Director, 
you have to do, to work with GAO to make sure that we keep 
those performance reviews in a meaningful and statistically 
accurate manner.
    And if there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 12:16 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
               
               
               
  

                                 [all]
</pre></body></html>
